<html>
<title> - TASK FORCE HEARINGS - Silo Busting: Effective Strategies for Government Reorganization and Enhancing Accountability and Increasing Financial Transparency</title>
<body><pre>[Senate Hearing 113-231]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-231

                          TASK FORCE HEARINGS

=======================================================================

                                HEARINGS

                               before the

                        COMMITTEE ON THE BUDGET
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              


    May 16, 2013 -Silo Busting: Effective Strategies for Government 
                             Reorganization

 September 18, 2013-Enhancing Accountability and Increasing Financial 
                              Transparency



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                                                        S. Hrg. 113-231
 
                          TASK FORCE HEARINGS

=======================================================================

                                HEARINGS

                               before the

                        COMMITTEE ON THE BUDGET
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

    May 16, 2013-Silo Busting: Effective Strategies for Government 
                             Reorganization
 September 18, 2013-Enhancing Accountability and Increasing Financial 
                              Transparency


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]















                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
85-904pdf                 WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001

























                        COMMITTEE ON THE BUDGET

                   PATTY MURRAY, WASHINGTON, CHAIRMAN

RON WYDEN, OREGON                    JEFF SESSIONS, ALABAMA
BILL NELSON, FLORIDA                 CHARLES E. GRASSLEY, IOWA
DEBBIE STABENOW, MICHIGAN            MICHAEL ENZI, WYOMING
BERNARD SANDERS, VERMONT             MIKE CRAPO, IDAHO
SHELDON WHITEHOUSE, RHODE ISLAND     LINDSEY O. GRAHAM, SOUTH CAROLINA
MARK R. WARNER, VIRGINIA             ROB PORTMAN, OHIO
JEFF MERKLEY, OREGON                 PAT TOOMEY, PENNSYLVANIA
CHISTOPHER A. COONS, DELAWARE        RON JOHNSON, WISCONSIN
TAMMY BALDWIN, WISCONSIN             KELLY AYOTTE, NEW HAMPSHIRE
TIM KAINE, VIRGINIA                  ROGER F. WICKER, MISSISSIPPI
ANGUS S. KING, JR., MAINE

                Evan T. Schatz, Majority Staff Director
                  Eric Ueland, Minority Staff Director

                                  (ii)



































                            C O N T E N T S

                               __________

                                HEARINGS

                                                                   Page
May 16, 2013-Silo Busting: Effective Strategies for Government 
  Reorganization.................................................     1

September 18, 2013-Enhancing Accountability and Increasing 
  Financial Transparency.........................................   101

                    STATEMENTS BY COMMITTEE MEMBERS

Chairman Murray..................................................1, 101
Ranking member Sessions.........................................11, 114

                               WITNESSES

Stanley J. Czervinski, Director, Strategic Issues-US Government 
  Accountability Office..........................................   107
Honorable Gene L. Dodaro, Comptroller General, US Government 
  Accountability Office..........................................    11
Honorable John P. Holdren, Director, White House Office of 
  Science and Technology Policy..................................    56
Gerald J. Kane, Assistant Vice President for Research 
  Administration University of VA................................   132
Thomas Lee, Director of Sunlight Labs, Sunlight Foundation.......   126
Honorable Nicole S. Poore, Senator, Delaware General Assembly; 
  and Chair, Delaware Joint Sunset Committee.....................    74
David Rosenbloom, Distinguished Professor, Department of Public 
  Administration and Policy, The American Unversity..............    83

                         QUESTIONS AND ANSWERS

Questions and Answers............................................    96

























    SILO BUSTING: EFFECTIVE STRATEGIES FOR GOVERNMENT REORGANIZATION

                              ----------                              

                         THURSDAY, MAY 16, 2013

                              United States Senate,
  Committee on the Budget and the Task Force on Government 
                                               Performance,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:00 a.m., in 
Room 608, Dirksen Senate Office Building, Hon. Mark Warner, 
Chairman of the Task Force, presiding.
    Present: Senators Warner, Coons, Murray, Johnson, and 
Ayotte.
    Also Present: Senators Crapo and Wicker.
    Staff Present: Evan T. Schatz, Majority Staff Director; and 
Marcus Peacock, Minority Staff Director

              OPENING STATEMENT OF CHAIRMAN WARNER

    Chairman Warner. Good morning. I want to welcome everyone 
to the hearing of the Budget Committee's Government Performance 
Task Force. Today's session is on ``Silo Busting: Effective 
Strategies for Government Reorganization.''
    This is actually the first hearing of the 113th Congress of 
our bipartisan task force. I want to begin by thanking both 
Chairman Murray and Ranking Member Sessions for allowing this 
task force to continue its work. It was started the last 
Congress as an initiative of the Budget Committee and I think 
it has a wide scope of jurisdiction and look forward to doing a 
lot with it this year, because while there is a wide range of 
items that members of both parties disagree on, this is 
actually a place where there is an awful lot of general 
bipartisan agreement, and that is that a more effective 
government is something that we all want to strive for.
    I want to particularly welcome the new members of the task 
force this year, Senator Coons on the majority side, Ranking 
Member Senator Ayotte from New Hampshire. I am looking forward 
to working with the Senator in a joint way on a lot of 
subjects. Senator Johnson from Wisconsin, who I think will be 
coming by and joining us a little bit later. I want to thank 
Senator Sheldon Whitehouse who actually originally had the idea 
for this task force back in 2009, and he is going to continue 
to participate with the group.
    I also want to make sure that I make clear from the outset, 
this is kind of an ac hoc group with, I think, again, an 
interesting subject matter, and we welcome other members of the 
Budget Committee. I want to thank particularly Senator Wicker 
for joining us here this morning. I think there may be a couple 
of other members who are going to join us, as well.
    For those of you who are at the first of these hearings and 
are wondering, all right, how did you stumble into this room 
this morning and what is the subject, our Government 
Performance Task Force has the charge from the Budget Committee 
standpoint, since we have a rather broad perspective to look at 
all aspects of the Federal Government, to review Federal 
programs to make them more effective and efficient and to 
examine the information that is available to Congress so that 
we, as policy makers, can make more informed decisions.
    As I mentioned, we began in 2009 when we started to review 
the performance reports and metrics from Federal agencies. In 
our very first hearing, we learned that there were stacks of 
performance reports lining the shelves across Washington that, 
quite honestly, were never used. It seemed like every new 
administration, there would be a new management agenda that 
would basically throw out the old, go through another process, 
and then that management agenda too often would end up on the 
shelf.
    So we did take a step to try to address that. In 2010, we 
enacted a piece of legislation that both members of the staff 
and some folks in the audience today were major components of 
called the Government Performance and Results Modernization 
Act, GPRA, which I like to refer to as one of the most 
important bills that nobody has ever heard of. And I say 
important because it really did two or three, I think, critical 
things.
    First, it said that, too often, Congress, when we pass 
legislation or deal with a particular agency or department, we 
constantly assign new goals and objectives, and any of us who 
have been in executive or management positions know that if you 
are trying to manage an organization and you have 50 goals, in 
reality, then you have no goals because any good executive 
realizes we have to focus on a limited but key number of 
priorities. The GPRA bill required that each agency and 
programmatic area try to narrow down their goals to three to 
five top priorities and that we would then be able to measure 
those three to five top priorities on a quarterly basis.
    The GAO, and Gene Dodaro was here, just issued a report 
that I am anxious to have him discuss a little bit that says 
that agencies are actually now using these top priorities as a 
way to make their decisions, and I believe that is some good 
progress.
    Second, in GPRA, we wanted to make sure that we had better 
data in terms of oversight and decision making. Part of that, 
and this was something that was--I recall there was some great 
consternation in the administration when we were passing this 
legislation. Oftentimes, agencies will be happy to trumpet 
their most successful programs. What we found, though, was that 
what was not as often trumpeted or acknowledged was what were 
the programs that were least performing.
    In an area of tight fiscal constraint, we have to not only 
look at those programs that are doing well, but we have to look 
at those programs that are underperforming, and the GPRA 
Modernization Act required agencies to identify outdated and 
programs that were not as high of priorities, and we have 
actually got some of those results in right now. And again, for 
those of us as we go through these challenging times, 
hopefully, that will be a guidepost for us, not only the 
process that OMB uses, but for us in Congress to make some 
evaluations.
    GPRA also said that if we were trying to focus agencies on 
top priorities and go through the very difficult challenge of 
identifying which programs were not as important, that one of 
the things we did not want to do as we looked at the kind of 
management side of the operations, we did not want to simply 
add more reporting requirements without looking at what we 
could actually eliminate. The halls of Congress and the 
administration are filled with reports that nobody ever looks 
at, nobody ever reads, that our Federal workforce, I believe, 
at many times is overly burdened with, and GPRA also required 
that we come forward with those reports that perhaps have 
outlived their usefulness. And, again, GAO has done some great 
work on that subject and we are going to get to that.
    We also had a focus on cross-cutting organization. The fact 
is, we do an awful lot in the Federal Government that gets out 
of silos, that goes from agency to agency. For example, we have 
got something we are going to highlight in a few moments that 
looked at defense functions that are now being held not only 
within the Department of Defense, but within literally ten 
different agencies, and we have got a chart that we want to 
bring to the forefront a little bit later in the hearing.
    I do want to take a moment now--I have got a couple more 
minutes of an opening statement before I turn to our Ranking 
Member, but recognizing that the only reason that this task 
force is still here and that the Ranking Member and I are able 
to hold this hearing is because of the good will of both the 
Ranking Member and, of course, of our Chairman, Chairman Patty 
Murray, and I want to again just personally thank Chairman 
Murray for allowing this task force to continue. She knows as 
well as anyone in her role not only as Budget Committee member 
but as a member of the Super Committee and involved in all of 
the actions that the Congress has taken on to try to get our 
debt and deficit and spending under control, she has been an 
active participant in all of that, and I know she has got 
another item that she has got to attend to, but I want to break 
in at this point and introduce the Chairman to make a couple of 
comments.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Murray. Well, thank you very much, Senator Warner, 
Senator Ayotte, for your leadership on putting this committee 
together and working on the Government Performance Task Force.
    I really appreciate your efforts on this and look forward 
to working with both of you to help make sure that government 
is more effective and efficient. And I want to thank Senator 
Sessions. I know he cannot be here, either, today, and I have 
another committee hearing I am working on. But I did want to 
just come in and say this is so important. I want to thank all 
of our committee members who are working on this and really 
appreciate it.
    I think it is really important that this task force move 
forward, and I think with your leadership, Senator Warner and 
Senator Ayotte, focusing on how we can be more efficient and 
use tax dollars more wisely is a critical part of this 
committee's responsibility. I think all of us know that we have 
to invest in education and transportation and research and all 
those kinds of things and we need to do it in a way that is 
using our taxpayer dollars wisely. The more we can save by 
doing it efficiently, the better off we will be as a country.
    So your work is extremely important to our budget and to 
our country and I appreciate your leadership in doing this. I 
know, Senator Warner, you have a tremendous record serving as 
Governor doing the same kinds of thing in your home State and 
have proved very effective with that.
    So I just wanted to come by very quickly and tell you how 
much I appreciate you and Senator Ayotte taking the lead on 
this and really looking at how we can be effective and 
efficient and run government wisely, save the dollars that we 
can and use them to invest them in places that are really 
important for our country.
    So thank you very much for your work on this, and I would 
ask that my entire statement be printed in the record.
    [The prepared statement of Chairman Murray follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Warner. Absolutely.
    Chairman Murray. Thank you.
    Chairman Warner. Thank you, Chairman Murray.
    One other item, again, before--and I want to thank--I 
already gave Senator Johnson kudos for being part of this task 
force. Again, I want to thank you, Ron, for participating.
    I want to also acknowledge my good friend, Senator Crapo, 
who I have spent countless hours as we have talked about how do 
we get our spending and debt and deficit under control, and I 
know this is a subject of great importance to him, as well.
    One of the things that the budget process leads us to is 
also the look at--and one of the things we have tried to do is 
basically do a map of the kind of overlap of responsibilities 
and functions across the Federal Government. And again, we are 
going to come to that in a few moments.
    The last point I want to raise before we turn to Senator 
Ayotte is this whole question of reorganization. I think we all 
know, and everyone has got their favorite statistic, whether it 
is workforce training or today it is going to be STEM programs, 
there is every area of government where we will list literally 
dozens, sometimes, of programs all after the same policy goal. 
and one of the things that I find that is so frustrating is we 
do not measure these programs' effectiveness against each 
other. And in tight fiscal times, one of the ways we can get 
more bang for the buck is if we can look at smart, meaningful 
consolidation of programs where we can actually put more 
resources into the actual public policy goal rather than in 
simply the kind of overhead and administrative cost of running 
a variety of programs.
    Again, GAO has done some good work in that, and one of the 
things that the administration has worked on, without, I think, 
a lot of recognition, is they have taken their own actions. The 
President early on asked for looking at duplicative program 
areas, and in 2012 alone, the administration proposed more than 
$700 million in savings in program consolidations that were 
actually enacted, something that we ought to at least look at.
    Part of the constraints, though, and I know this is where I 
speak more as a former chief executive, and I know there is 
push-back on this subject from both sides of the aisle, but I 
had legislation last session along with Senator Lieberman that 
I look forward to reintroducing that would give back to the 
President, regardless of who he or she may be, the ability to 
reorganize the executive branch in a way that, candidly, every 
governor has had. This was power that previous Presidents had 
up until President Reagan. That authority was taken away.
    I think in an increasingly complex, complicated world with 
the kind of mishmash of programmatic responsibility oftentimes 
that we have put in place as Congress, that we ought to regrant 
a President, with appropriate oversight from Congress, the 
ability to reorganize the executive branch in a way to make it 
more efficient and effective. Any CEO worth his or her salt 
knows that is a critical tool if you are going to try to 
stretch your resources. So that will be legislation that I will 
be looking forward to reintroducing and, again, would love to 
work with members on both sides of the aisle to try to get that 
done.
    Today, we are going to hear from two witnesses, one, Dr. 
John Holdren, the Director of the White House Office of Science 
and Technology Policy, who will share more information about a 
proposal for consolidation from the White House that I think 
has promise. He is going to talk, and I will introduce him a 
little more formally in a moment, on STEM programs. Everybody 
is for more STEM education. We know that is an area that we are 
falling far behind in. But I think we would be astonished if we 
realized how many various STEM programs we have sprinkled all 
across the government without any really good metrics on what 
is working and not working and how we can perhaps do a good job 
of consolidation and get better bang for our buck.
    Obviously, we will also hear from Gene Dodaro, who is the 
Comptroller General at the GAO. The GAO, I think, is 
extraordinarily well respected across party lines in terms of 
that trusted branch that looks at, from an objective 
standpoint, these questions, from duplication to over-reporting 
requirements, to a host of other areas. And, again, Gene has 
got a report here that I think will be of great interest to our 
members.
    In a second panel, and again, I hope members will be 
willing to stay from this, we are going to hear from Senator 
Nicole Poore from Delaware's Sunset Commission and Dr. David 
Rosenbloom from American University. I will introduce those 
folks more when we get to the second panel.
    Before I introduce the first panel, though, I want to turn 
to our Ranking Member, Senator Ayotte from New Hampshire. New 
Hampshire is long known for being a State that guards its 
resources judiciously and I look forward to working with 
Senator Ayotte on this very, very important task force. Senator 
Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you very much, Chairman Warner. I 
appreciate your holding this hearing and I certainly thank the 
Chairman of the committee, Chairman Murray, as well as Ranking 
Member Sessions, for allowing us to do this and for 
prioritizing this hearing. I really appreciate all the work you 
did as Governor and here on focusing on making sure that we 
have better, more effective government. So I am very much 
looking forward to what this hearing will do.
    I also am very pleased to have both of the witnesses that 
are here today before us. This is something that we talk to our 
constituents so much about, and I think that, inherently, the 
American people understand that we can do so much better in our 
government in terms of how we use their taxpayer dollars.
    As the title of this hearing indicates, our purpose today 
is to help identify effective strategies to produce a leaner, 
smarter Federal Government. And with a large and complex 
government like ours, common sense reforms too often, 
truthfully, fall victim to business as usual politics. And that 
has to stop, because if you look at the challenging times that 
we are in, that we need to make sure that when taxpayers send 
their hard-earned dollars to Washington, that we focus on 
effectively using their dollars and so that they are getting 
the return on their investment. So we need to take advantage of 
every opportunity to eliminate waste, provide more 
accountability and more rigorous oversight.
    And I think that has also really come to light with 
sequestration, the impact of sequestration right now. So when I 
look, for example, at the GAO report and I look at the 
recommendations that GAO has made in terms of duplicative areas 
within the government and fragmented areas, areas where, if we 
could more effectively run this government, we could find 
savings. I think this is an incredibly important discussion to 
have now in light of the fiscal state of where we are. So I 
appreciate GAO being here and I certainly appreciate Mr. 
Holdren being here, as well.
    The 2013 GAO report released last month identifies 31 areas 
where agencies may be able to achieve greater efficiency or 
effectiveness, and this includes 17 areas of fragmentation, 
overlap, or duplication, where multiple programs and activities 
may be creating inefficiencies, and 14 areas where 
opportunities exist to achieve cost savings or enhance revenue 
collections.
    The report also makes 81 recommended actions that the 
executive branch and Congress could take to reduce or eliminate 
overlap and duplication. Some of the examples that I have 
already seen, and certainly there are many within the GAO 
report, I also serve on the Armed Services Committee. A 
hundred-and-fifty-nine contracting organizations in ten 
Pentagon offices providing foreign language support.
    We have examples of 76 drug abuse prevention and treatment 
programs spread across 15 agencies. Having served as Attorney 
General, I certainly recognize the importance of Federal drug 
abuse prevention and treatment, but we need to make sure that 
agencies are working together and we do not have duplication 
that actually makes us less effective.
    Twenty-three agencies implement 679 renewable energy 
programs at a cost of $15 million just in fiscal year 2010 
alone. Can we consolidate them? What should we be doing in that 
area to do better?
    Among 29 Department--and I also serve on Homeland 
Security--among 29 Department of Homeland Security contracts 
worth $66 billion, GAO found 35 instances where contracts 
overlapped with existing Department of Homeland Security 
activities.
    Let me just give an example that I really hope we get rid 
of next week: Catfish inspections. So, we are taking up the 
farm bill next week and one of the examples in this bill, of 
course, is duplicative programs that were in the 2008 farm bill 
assigned to the U.S. Department of Agriculture Food Safety and 
Inspection on inspecting catfish. And I can tell you that I 
have heard quite a bit about this catfish duplication from my 
constituents and we have an opportunity to take this up next 
week, I hope.
    Both Congress and the administration have failed to fully 
or even adequately, sometimes, address this waste and 
duplication, and I appreciate the efforts that have been made 
that certainly were outlined very well by the Chairman today. 
But I think that we can agree on a bipartisan basis that there 
is so much more that we can do together, really, to have a 
better, more effective government.
    For example, in its 2011 and 2012 reports, GAO identified 
approximately 300 actions among 131 overall areas that the 
executive branch and Congress could take to reduce or eliminate 
duplication. Yet as of March 6, only about 12 percent were 
addressed. That is not acceptable. We can do so much better, 
and we must do better.
    We have an obligation to the people of this country to do 
better than we are doing now. We struggle to act on many 
issues, but this is an area where we should be able to act 
together, and I appreciate the Chairman holding this hearing. 
That shows that he is committed to working across the aisle to 
see how we can have more effective government. And I appreciate 
both of you being here today.
    And one thing I do hope is that we can find ways that these 
GAO reports do not just sit on the shelf, that we can take them 
up, take the recommendations that we think make the most sense, 
and implement them quickly.
    So thank you both for being here.
    Chairman Warner. Thank you, Senator Ayotte.
    Do other members want to make a comment before we introduce 
the witnesses? I just add one quick moment. The greatest kind 
of first year education I got on this subject was I came in--we 
were having the first budget hearings--and I looked at the 
programs that both the Bush administration and the Obama 
administration had agreed on ought to be eliminated. They had 
some difference, but there were 11 common programs that they 
sought. Well, that should be the easiest thing possible.
    Senator Ayotte. Right. Exactly.
    Chairman Warner. If both administrations--
    Senator Ayotte. If you have got Republican and Democrat, 
let us put those--
    Chairman Warner. I quickly learned that President Reagan 
was right. The hardest thing to eliminate is a government 
program. But, anyway, that is a subject that we are going to--
    Senator Ayotte. Right. And he also said the closest thing 
to eternal life, as well, is a government program.
    Chairman Warner. So let us get to the witnesses. We have 
got, I know, a lot of questions.
    First up, of course, as I mentioned, is Gene Dodaro, who is 
the Comptroller General at the GAO. He has spoken before this 
task force and committee a number of times. He spent over 30 
years at the GAO. I know he does a great job and is 
extraordinarily well respected on both sides of the aisle.
    We are then going to hear from Dr. John Holdren. Dr. 
Holdren is the Assistant to the President for Science and 
Technology and is Director of the White House Office of Science 
and Technology Policy. This is his first time, I think, 
testifying before this group, but he has got, I think, some 
very exciting information about some consolidation efforts on 
the STEM program. I am going to not read through his very 
lengthy resume, but I can assure you he is a top-flight 
scientist and, I think, will bring that sense of rigor to the 
question of STEM programs.
    So, again, we will start with Mr. Dodaro first, and then 
Dr. Holdren, and we look forward to your testimony.

  STATEMENT OF HONORABLE GENE L. DODARO, COMPTROLLER GENERAL, 
             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Dodaro. Thank you very much, Mr. Chairman. Good morning 
to you, Ranking Member Senator Ayotte, Senator Johnson, Senator 
Wicker.
    I am pleased to be here today to discuss our third and 
latest report on ways to improve government efficiency. As 
Senator Ayotte pointed out, we identified 31 new areas, 17 
focused on overlap, duplication, and fragmentation. Three quick 
examples I would give.
    In the military, we found that the camouflage uniforms for 
ground operations had increased from two to seven additional 
types of uniforms. Now, not only is this wasting opportunities 
to save money by joint purchasing among the different services, 
but it is not providing equivalent level of protection for 
joint operations. So we have estimated you could save up to 
$80-some million by taking action in this area and ensure 
better protection for the troops.
    Secondly, in the Medicaid program integrity area, we 
identified the fact that they hired two contractors, one to 
review State payments to identify areas for audit, and then 
another contractor then to actually go in and do those audits. 
We said, one contractor will do. You do not need to have this 
duplication. I am pleased to report that CMS has taken action 
now and not renewed the contracts for the review auditors, thus 
saving at least $15 million and perhaps more in that area.
    In the geospatial area, we found 31 different agencies 
purchasing geospatial information. There is clearly duplicative 
purchasing going on here. Now, here is an area where you have 
an interagency group. They have issued some policies, but they 
are not being implemented effectively and OMB does not have 
enough visibility over the investments that the agencies are 
making through the budget process. So additional effort here by 
the administration in this area could save millions of 
additional dollars.
    In the 14 areas where we found opportunities for cost 
savings and revenue enhancements, they span a wide range of 
areas. We identified some areas in the Medicare area where 
there could be billions of dollars of savings. The Medicaid 
area needs additional oversight. Strategic sourcing, having the 
government leverage its purchasing power to do more purchasing 
in bulk, could save billions of dollars, as well, and I would 
be happy to talk about these areas more in the Q&A session.
    Now, in addition to reporting these 31 new areas, we have 
kept up with our tradition of reporting on actions by the 
executive branch and the Congress in implementing our prior 
year recommendations. As Senator Ayotte mentioned, we had 130 
areas in the 2011 and 2012 reports. I am pleased that there has 
been some notable progress.
    First, the Congress let the ethanol tax credit expire, 
which we pointed out duplicated the renewable fuel standard. 
That was having multi-billion-dollar revenue losses to the 
government every year, so that is one example.
    Last year, also, I think a good example was the passage of 
the Moving Ahead for Progress Act in the transportation area. 
We had pointed out over 100 different programs had accreted 
over time in surface transportation. That bill and that Act 
consolidated a number of those programs and made some other 
important changes to implement our recommendations about better 
measuring performance of the programs that operate and clearly 
identifying roles and responsibilities.
    Also, the administration, based on our recommendation in 
the overseas operations, on our overseas posture, they had 
planned to send troops to South Korea for longer tours and to 
send their dependents over there. We said we do not think that 
that is a sustainable approach. You need to do a business case. 
They did, decided not to do that, and avoided about $3 billion 
in cost savings.
    In told, Senator Ayotte pointed out about 12 percent of our 
prior recommendations have been implemented. About 66 percent 
have been partially implemented, but there is a ways to go in 
those areas. So I agree with the Senator's comments. There is 
much more to be done. And 21 percent have not been addressed at 
all.
    So we think with our new areas and these areas, there is 
plenty of an agenda to go forward. In the short term, there are 
a lot of specific actions that could be taken by the Congress 
where we have identified concrete savings. In other areas, 
there is a need for more deliberation and probing and policy 
judgments on how to consolidate some of these program areas.
    The GPRA Modernization Act offers a lot of promise in that 
regard over the long term, particularly its cross-cutting 
agency focus, and we are focused on doing our job to evaluate 
that legislation as it is being implemented.
    So I appreciate your time and attention this morning. I 
would be happy to answer questions at the appropriate point.
    [The prepared statement of Mr. Dodaro follows:] 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Chairman Warner. Thank you.
    Dr. Holdren.

 STATEMENT OF HONORABLE JOHN P. HOLDREN, DIRECTOR, WHITE HOUSE 
            OFFICE OF SCIENCE AND TECHNOLOGY POLICY

    Mr. Holdren. Chairman Warner, Ranking Member Ayotte, 
Senator Johnson, Senator Wicker, it is a pleasure to be here 
today to talk about the current state of Federal spending on 
STEM education and do that in the context of the fiscal year 
2014 budget proposal from the President and, of course, in the 
context of our shared interest in improving the coordination, 
the efficiency, and the effectiveness of government programs.
    STEM education clearly is essential. It is essential to 
provide our citizens with the education and training that they 
are going to need to create and to fill the high-tech jobs of 
the 21st century. Accordingly, it is a high priority for the 
President. It is a high priority for me. I know it is a high 
priority for the Congress.
    The President's fiscal year 2014 budget supports that 
priority with a STEM education investment totaling $3.1 
billion. That is about a six percent increase over the 2012 
enacted level. But more important than that modest increase is 
the proposed restructuring under which 116 of today's 226 STEM 
education programs spread across 13 agencies would be 
eliminated or consolidated, with $176 million in savings 
resulting from that to be invested in bolstering larger, more 
coordinated, more easily evaluated efforts at the Department of 
Education, the National Science Foundation, and the Smithsonian 
Institution.
    I am going to focus my remarks this morning on that 
reorganization, but let me take a moment to note first that the 
Federal Government's investments in STEM education priorities 
are being amplified through important partnerships with the 
private and philanthropic sectors. Together, those partnerships 
have resulted in $700 million in contributions and in-kind 
services in support of our STEM education goals.
    Just in March, in support of the President's goal of 
preparing 100,000 new and excellent STEM teachers over the next 
decade, the Howard Hughes Medical Institute announced that it 
would invest $22.5 million in the National Math and Science 
Initiative to accelerate the scale-up of the successful You 
Teach Program which allows university students to earn a 
science degree and a teaching certificate simultaneously.
    Turning now to the proposed consolidation, its centerpiece 
is a set of three overarching focuses with a lead Federal 
agency for each one: K through 12 instruction, led by the 
Department of Education; college and university undergraduate 
STEM education and graduate fellowships, led by the National 
Science Foundation; and informal education activities that 
typically take place outside the classroom led by the 
Smithsonian Institution. This structure will help ensure that 
related programs are coordinated and that resources are focused 
on programs that deliver the most impact per dollar in their 
respective domains.
    The administration will continue to support a wide 
diversity of programs, though. Every Federal agency with a STEM 
education portfolio in 2012 will continue to have one in 2014 
with the addition of the Smithsonian, making a total of 14 
agencies. Much of the planned consolidation is within the 
agencies to focus on programs that best leverage the unique 
assets of each agency and programs that are integral to those 
agencies' specific scientific missions and goals.
    The strategy is the result of a process reflecting goals 
expressed by both the administration and the Congress.
    The National Science and Technology Council's Committee on 
STEM Education, or CoSTEM, which was called for in the America 
Competes Reauthorization Act of 2010, did the inventory of 
Federal STEM education programs that was the starting point for 
this restructuring effort. And CoSTEM's work on a five-year 
Federal STEM education strategic plan, to be released in final 
form later this month, informed the development of the proposal 
that is embodied in the President's fiscal year 2014 budget.
    That process was also guided by the GAO's recommendations 
on reducing duplication and fragmentation in the Federal 
Government, for which we are grateful. Thank you, Gene.
    In closing, I am looking forward to working with this 
committee and with your task force on our common vision for 
improving STEM education for all of America's students, and I 
will be pleased to try to answer any questions that the members 
may have.
    [The prepared statement of Mr. Holdren follows:] 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Chairman Warner. Thank you, gentlemen.
    I will put five minutes on the clock so we can all make 
sure we get a chance.
    One of the things that I also did not mention about GPRA 
that I think Senator Johnson, in particular, would be 
interested in, you know, until GPRA, we did not even have-- and 
it is still not complete, it is supposed to be completed in the 
next month--any inventory of all the Federal programs. So we 
did not even know how many programs were out there, which is a 
fairly remarkable--
    Senator Johnson. It is a problem.
    Chairman Warner. I could not imagine how you would run your 
business or I would run mine that way.
    One of the things, again, as most of us here now--I am 
sorry we lost Senator Wicker, but the three of us are all 
relatively new members, and one of the things I did not fully 
appreciate until I got here was, so you look at this 
duplication. Because of the variety of jurisdictional 
responsibility of all the various committees, it is really hard 
to go--you know, it is hard enough to illuminate inside an 
agency. But when you go across departments with different 
Congressional authorizing entities, it gets much, much harder.
    One of the things that was in the GAO report that I commend 
to all my members was this basic graphing, which puts by kind 
of function across different agencies, and it is, again, Mr. 
Dodaro, good work, recognizing that each of the various--each 
of these programs has got a champion somewhere within the 
government or within the Congress. How can we better measure, 
or what could we use to better measure the performance and 
evaluate the effectiveness of these programs, particularly if 
they fall within different departments?
    Mr. Dodaro. I think there are a couple of areas that I 
would point out. First of all, I think that the Modernization 
Act, the 2010 Act, requires Congress to be consulted more in 
the development of the performance measures in the first place. 
And I think that consultation is really important. It has not 
been there in the past. Some of our preliminary work shows a 
little bit of improvement, but not much, in that area. I think 
more consultation from the Congress can really be a very 
important point in this area.
    Secondly, I think the Congressional oversight is very 
important, that the agencies need to come up with good measures 
and then keep those measures over time. What we find is that 
after a while, if they are not meeting the performance 
measures, they will change the measures and that changes your 
ability to monitor their performance over time and hold them 
accountable, and that needs to be rectified.
    Thirdly, I think Congress could have more joint hearings on 
the cross-cutting goals with multiple committees involved. I 
have testified in some cases and that works effectively, and 
there are 14 cross-cutting goals that the President has 
identified in his budget, so that is a starting point. STEM is 
one of them. Employment training programs, veterans programs, 
other things that are really important to the Congress, as 
well, are in there, and I think the committees need to work 
together to identify those areas.
    So those are three fundamental things I would start out 
with. But I would say that unless the Congress pays attention 
to the performance information, you can only expect incremental 
improvements within the executive branch and it is not going to 
be sufficient to deal with our long-range fiscal challenges.
    Chairman Warner. I would concur with that. Again, that was 
one of the reasons why we thought this at the Budget Committee 
level, since we have a broad enough purview, but we have got to 
get the authorizers and appropriators in on this, as well.
    I guess one of the things I want to--I want to try to get 
two more questions in and not go over my time. One is that 
another piece of legislation that I am working with actually 
Congressman Issa on the House side on is the DATA Act to try to 
make sure--not only do we have program overlap, but we have 
totally different financial reporting systems. What appears as 
an expenditure on one area looks as a grant in another, and I 
do not know, Gene, if you might want to mention about the 
challenges about collecting budgetary data and how important it 
would be to try to get to a common platform.
    Mr. Dodaro. This is really essential. I mean, it is one of 
the basic building blocks of tackling this issue. We faced 
enormous challenges trying to identify that, and that is one of 
the reasons we were not able to go very much further in a 
number of these areas. As Senator Ayotte mentioned, there are 
over 600 programs in the energy area, efficiency. We were not 
able to fully evaluate those 600 initiatives because there was 
not good budget information available on a lot of those 
programs and activities. So this is really important.
    I think the DATA Act that you and Congressman Issa have 
been working on, and others, is really important, because 
unless there is a legislative framework that is in place to 
ensure that there are clear data standards and public reporting 
to the Congress on these programs, it is not going to happen 
and it will not endure over time between administrations.
    So I commend your efforts in that area. I will be happy to 
do whatever I can to help--
    Chairman Warner. We would love to have your help. I think 
there are over 200 different financial reporting systems just 
at DOD.
    Let me just ask Dr. Holdren one question. I think it is 
great that you are trying to consolidate these programs into 
these three kind of coordinating entities. How much push-back 
are you getting from all the other areas where these programs 
are currently located?
    Mr. Holdren. Well, the first thing I would say, there are 
altogether 78 programs that are actually being eliminated and 
the remaining 38 of the 116 that I mentioned are being 
consolidated, merged with other programs.
    The ones that are being eliminated, adding up to, as I 
mentioned, $176 million, amount actually to about 15 percent of 
the spending on STEM education across the nine agencies that 
are losing programs. Fifteen percent is significant. Obviously, 
there are some folks who are not pleased by losing those 
particular programs, and so we have heard about that. But I 
think, on the whole, the agencies appreciate and understand the 
reasons for this approach. They understand the need for greater 
coordination, coherence, efficiency, and ease of evaluation.
    And part of their consolation is that some of the monies 
that are going into the Department of Education, into NSF, into 
the Smithsonian Institution to be spent in a more coherent, 
coordinated, and evaluative a way, will still draw on the 
resources of those agencies to exploit their specific 
expertises and reach their agency's specific audiences. So 
while we are getting greater coordination and efficiency and 
evaluation out of this, we are working very hard not to lose 
the benefits where specific agency expertises match education 
opportunities.
    Chairman Warner. Senator Ayotte.
    Senator Ayotte. I want to thank both of you for being here 
today.
    You know, one of the things--I really appreciated what the 
Chairman said. How much, General Dodaro, how much--can you give 
me a sense of your work at the GAO. How much are we measuring 
any kind of metrics or effectiveness within government that you 
have seen of programs? My sense is, very little.
    Mr. Dodaro. That is correct. And one thing really surprised 
me as we have done this overlap and duplication work. Despite 
the original Government Performance Act that was passed in 
1993, which required goals and measures, when we looked across 
the specific program activities, we found in many areas that 
there really has not been good measures of performance, or more 
importantly, effectiveness reviews, program evaluations of what 
is working and what is not. And that really is a limiting 
factor in helping Congress quickly address some of these 
issues.
    You know, I think it is--what we found, the burden of proof 
is on us if we want to have a program stop. You have to 
convince people to stop a program. You do not have to say, 
okay, to the programs, what are you doing to justify additional 
expenditure?
    Senator Ayotte. Right.
    Mr. Dodaro. So the incentives are exactly the opposite.
    Senator Ayotte. So we have to put that in reverse--
    Mr. Dodaro. Yes.
    Senator Ayotte. --if we are going to actually be able to 
demonstrate to taxpayers that if we put resources in a 
particular area, that we are getting the results that we are 
purporting to want, whatever the area is, whether it is STEM, 
drug prevention.
    You know, one of the things I see is that members of 
Congress propose new programs and then they do not even look to 
see whether there is a program already addressing the area. How 
much do you view that as a factor with where we have come in 
the duplication here, or do you see that also happening in the 
executive branch, so both branches being guilty of this?
    Mr. Dodaro. I think it happens in both branches. What 
happens, there are three different factors that I have seen 
sort of overall. One is there is an accretion over time. 
Surface transportation is one. We started out with the 
Interstate Highway System in the 1950s. We added over decades 
to come up with 100 programs. So it happens over time.
    Secondly, you will have a broad program to, say, provide 
training to somebody who is unemployed and somebody will say, 
well, we are not getting to the veterans. We are not getting 
the Native Americans. We are not getting to the youth. So we 
need programs targeted in those areas as opposed to figuring 
out how to make the basic program work more effectively for 
those targets.
    And then, thirdly, defense as a whole is sort of a set of 
circumstances. There, you have service-centric incentives and 
you have stovepipes, and Defense is replete with overlap and 
duplication.
    Senator Ayotte. How much could we, in terms of 
legislation--I mean, I almost like the idea that no one can 
propose a new program unless they justify that there is not 
another program that does what they are proposing to do. What 
thoughts do you have on legislation that would try to stop this 
proliferation of programs when we have not evaluated what we 
already have?
    Mr. Dodaro. I think that that is an important area. I know 
Senator Coburn has introduced some legislation to that effect, 
and others have, as well. So I think that is one thing.
    The second thing I would say is that there needs to be--the 
paradigm needs to shift on programs that are already in 
existence of demonstrating their effectiveness in order to get 
additional funding in the future and to maintain their 
existence.
    Senator Ayotte. The burden of proof has to shift, is what 
you are saying.
    Mr. Dodaro. Yes.
    Senator Ayotte. It should be on the program to justify to 
us versus the reverse, which is happening now.
    Mr. Dodaro. That is exactly right, and I think that is one 
of the reasons--you both quoted President Reagan. That is one 
of the fundamental reasons that is true.
    Senator Ayotte. Mm-hmm. When I look at some of the areas 
serving--you were talking about the stovepiping within the 
Pentagon. Since I also serve on Armed Services, we are--and I 
see that, that each branch has its own administrative 
functions, many of them duplicative. How would you recommend us 
going forward to try to eliminate that, because I think there 
have been a lot of attempts to do it. What would you do if you 
were in my shoes, for example?
    Mr. Dodaro. Well, we have pointed out very specific areas, 
and I would start there. First, every service has its own 
military command.
    Senator Ayotte. Right.
    Mr. Dodaro. Congress has not required them to come forward 
with a proposal. We are evaluating it. They have taken some 
incremental steps, but probably not fully achieved everything 
that is possible there. There had been estimates that we 
updated. You could save $200 to $400 million there.
    Unmanned aircraft systems, you know, the Navy wanted to 
have its own Global Hawk instead of using the Air Force's 
Global Hawk, and there are a lot of payload systems, you know, 
operating systems for these things that everybody is designing 
their own. Electronic warfare, same thing. Information 
surveillance and reconnaissance information. I mentioned the 
combat uniforms. So we have a lot of very specific areas.
    And the other area is strategic sourcing. They are not 
leveraging their purchasing power very well in this area, as 
well. We have estimates in the private sector--we just issued a 
report yesterday saying the private sector gains from four to 
15 percent annually by leveraging its purchasing power and DOD 
does not do that. Neither do other large civilian agencies. I 
do not mean to single them out. That is a problem across 
government.
    Senator Ayotte. Right.
    Mr. Dodaro. So I would say, focus on the specific areas 
that we have given and try to hold them accountable, and there 
has to be department-wide efforts and focus on this. But the 
Congress has to be an integral part of that process.
    Senator Ayotte. My time has expired, and obviously, there 
is so much to all of this, but I appreciate you both being 
here.
    Chairman Warner. Before I go to Senator Johnson, I just 
want to mention, I think, building on what you said, that one 
of the things--GAO does a great job of helping to identify some 
of these flaws. OMB, you can argue, depending on their 
priority, does some of this, as well. Until the GPRA bill, 
there was no effort ever at the actual agency level to ask 
those folks who are running to identify not just their good 
programs, but their underperforming programs. And it was 
enormous push-back from this administration--I think it would 
be from any administration--but we have got that first list and 
it came back a couple months ago, right. So it would be, I 
think, a good guidepost to add to this information.
    Senator Ayotte. That sounds terrific, and I agree with 
that. And also, I think, going forward, creating incentives 
within the agencies for the people that work there, greater 
incentives for them to come forward as performance measures.
    Chairman Warner. Amen.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman. Thanks for 
holding this hearing.
    By the way, probably the best incentive would be to cut 
their budget and then they are really going to be incentivized 
to get efficient. That is how you have to do it in business.
    Information is incredibly important. Mr. Dodaro, by the 
way, GAO, it is a great organization. It is providing that 
information. During the sequester, how many agencies came to 
GAO looking at all of your reports to look for help in terms of 
how to get a little more efficient with the dollars they were 
being allocated?
    Mr. Dodaro. I did not receive any calls. Maybe they came to 
other people in the organization, but--
    Senator Johnson. You have done--
    Mr. Dodaro. I am hopeful they looked at our material, but I 
do not know.
    Senator Johnson. You have done how many reports now on 
duplication?
    Mr. Dodaro. Three.
    Senator Johnson. Three.
    Mr. Dodaro. Three.
    Senator Johnson. I believe Senator Coburn--I do not want to 
speak for him, but I think he estimates the total dollar cost 
of those duplicated programs is somewhere approaching $300 
billion per year. Is that about what you think, or--
    Mr. Dodaro. Well, I mean, if you add up all the money going 
into the programs, yes. But, I mean, how much of that he could 
actually save depends on the policy decisions.
    Senator Johnson. I understand, but that is really about 30 
percent of discretionary spending--
    Mr. Dodaro. Yes. We have covered--we have a chart in our 
latest report. Our goal was to cover the entire Federal 
Government in this three-year cycle, this first three-year 
cycle of reports, and we did that. We have got recommendations 
for virtually all major departments and agencies of the Federal 
Government. Most of our recommendations are in defense and 
health care areas, where the dollars are.
    Senator Johnson. Right.
    Mr. Dodaro. So it is a wide range of potential 
opportunities.
    Senator Johnson. I was kind of surprised at the 
implementation rate--12 percent implemented, 66 percent 
partially implemented--but I am not really seeing the dollar 
savings. Is that an incorrect perception or is that correct?
    Mr. Dodaro. Well, there are some notable big examples. I 
mentioned the ethanol tax credit--
    Senator Johnson. Right.
    Mr. Dodaro. --and the savings over at the Defense 
Department, $3 billion not being spent in the tour 
normalization in Korea. But there are big other dollars.
    You know, we have had recommendations to cancel the 
Medicare Advantage Bonus Demonstration Project, which we think 
is not really proving anything. It is rewarding average 
performing plans. When we made that recommendation, if the 
Congress had acted or the administration, they could have saved 
$8.3 billion. There are still opportunities to save $2 billion 
there in that program. And we have other examples of that, 
where there are real big dollar opportunities.
    Senator Johnson. So, Mr. Chairman, I think the way we need 
to do this is we need to pass a budget with those 
recommendations attached and remove the dollars that those 
recommendations say we can save, and I think that is how you 
get the thing done.
    Mr. Holdren, it is true we do not measure the intended 
consequences. We certainly do not even consider, much less 
measure, the unintended consequences of government. In your 
area, what are your primary areas of measurement?
    Mr. Holdren. Well, of course, if you are referring to the 
STEM education domain, one of the metrics of measurement is, of 
course, the test scores. Another is graduation rates. Another 
is what fraction of students who enter college intending to get 
STEM degrees actually graduate with STEM degrees.
    Senator Johnson. Okay, so let us start with test scores. 
What has the measurement been from, let us say, the inception 
of the Department of Education in 1979 to today. What has 
happened with test scores?
    Mr. Holdren. I could not tell you. I can certainly get back 
to you on that.
    Senator Johnson. Okay. I just had staff quickly take a 
look. In 1970, our average SAT math score was 460. In 1981, it 
was 424. I do not know, do we have the number for today? 
Possibly different. They are not going up.
    Ms. McNeill. It has fallen--
    Senator Johnson. It has fallen another 20 points. So we 
have probably spent--again, I did not come prepared with the 
exact numbers, but over 33 years, starting out with a $12 
billion budget, today we have got about a $19 billion budget at 
the Department of Education, close to half-a-trillion dollars 
on education. Falling test scores is not a real good result, is 
it?
    Mr. Holdren. We know we need to improve, Senator. That is 
why we are looking hard at these programs and trying to make 
them more coherent and--
    Senator Johnson. Do you think the Federal Government has 
any possibility of improving it, when we have given it 33 years 
and close to half-a-trillion dollars in spending on education 
and that is the result?
    Mr. Holdren. Well, of course, the primary responsibility 
for education rests with States and communities. The Federal 
Government tries to leverage its resources to achieve specific 
goals, and I believe, as we have already said, that we need to 
do better in that. My focus is STEM education--
    Senator Johnson. Can you point to a metric of success over 
the last 30 years?
    Mr. Holdren. Senator, I am not responsible for the last 30 
years. I am responsible for what we can do now to improve the 
situation we are in, and as Chairman Warner pointed out in his 
opening remarks, we are not doing so well in the STEM education 
domain. We need to do better and we are thinking hard about how 
to do it.
    Senator Johnson. Mr. Dodaro, real quick, have you ever seen 
any measurement of unintended consequences of a government 
program in anything you have ever looked at?
    Mr. Dodaro. I cannot recall any offhand. I mean, some of 
our work does focus on what happens in some of those areas, but 
I would have to get back to you with some examples.
    But in this area, I mean, just to illustrate your point in 
the STEM area, we found over 200 programs in that area. Sixty-
six percent of the programs had not conducted an evaluation of 
their entire program since 2005. So it is just one example. I 
could cite other examples in other functional areas. But there 
is little known about the effectiveness of all these programs. 
I am hopeful, with the consolidation, but I think in evaluating 
the President's proposal, it really has to be clear how these 
programs will be evaluated on a consolidated level.
    Some of the programs are so small--inherent teacher 
quality, which is another area we pointed out that is relevant 
to your point--there are 82 programs on teacher quality. Some 
of them are too small to effectively measure, and that is not a 
way to allocate and learn lessons.
    Senator Johnson. In the areas that you have seen measured, 
have you seen a metric of success, I mean, just to point to one 
and go, hey, this actually worked?
    Mr. Dodaro. There are some. In the nutrition area, food and 
nutrition area, for example, the largest, there are 18 
different programs. The seven largest have been evaluated and 
there is some positive indications of the success of those 
programs in achieving their objectives. The other 11 programs 
have not been evaluated.
    Senator Johnson. Okay. Thank you, Mr. Chairman.
    Chairman Warner. I would say that one of the things that 
Dr. Holdren has pointed out, before I move to Senator Coons, is 
that they are taking this mishmash of STEM programs, and I 
would be the first to acknowledge that there is not a group 
that comes in that does not say they have got a new STEM idea. 
Whatever their function is, they are trying to attach a STEM 
idea to it because that happens to be hot at this moment in 
time. So I would commend the administration on this 
consolidation of the 116 and elimination of 79 of these 
programs and trying to focus this in these three key areas of 
K-12, college, and then kind of more--
    Senator Johnson. But if I can just quickly point out, so we 
are going to consolidate these programs, and with the savings, 
we are going to spend the savings--
    Chairman Warner. Except for the fact--
    Senator Johnson. --at a point when we cannot afford to 
spend them.
    Chairman Warner. Except for the fact that I think we do--
    Senator Johnson. We actually need to bank the savings.
    Chairman Warner. --we do need to have the kind of metrics 
that Dr. Holdren has mentioned.
    Senator Coons. I want to welcome Senator Coons, who is a 
new addition to the panel, and I promise you, this will be a 
lively panel because there is actually a lot of agreement.
    Senator Coons. Senator Warner, I appreciate the invitation 
to a lively panel. I have two other committees currently in 
markup, so if you will forgive my somewhat peripatetic 
attendance. I am eager to welcome a State Senator from Delaware 
to our second panel.
    I know both the gentlemen in front of us and I just want to 
commend you for your work in both identifying areas of overlap 
and duplication and in finding ways to coordinate and organize 
our STEM investments so that they are more effective. And I 
think the general outline laid out in my briefing material 
suggests we have got some difficult work to do together here 
and that we could achieve significant improvement and better 
efficiencies.
    The other committee that is currently in markup, Judiciary, 
considering immigration, is also trying to figure out how to 
prioritize investment in STEM. My hope is that we will take 
into account some of these lessons in doing so.
    With that, thank you, Mr. Chairman.
    Chairman Warner. I know we need to get to the second panel, 
but I want to at least ask one more question, if Senator 
Johnson wants to get one more in, and--
    Senator Ayotte. And I want to get one more.
    Chairman Warner. All right. I will just ask a brief one, 
because we do have a second panel, and it actually is, to me, 
an area that would be extraordinarily low-hanging fruit, and 
that, Mr. Dodaro, if you can speak for a moment about your 
report on the duplication of just some of these reporting 
requirements and the number of these reports that are basically 
never looked at, never examined, never focused on. While it may 
not amount to huge amounts of savings, if we can better 
allocate our workforce's resources into actually producing more 
effective results in their policy area goal with better metrics 
rather than simply doing these, in many cases, duplicative 
reporting, I would love you to speak to that.
    Mr. Dodaro. Senator, I would like to submit something for 
the record on that. I am not--I do not recall offhand enough 
specifics of that report right now, so I would prefer to submit 
something.
    Chairman Warner. And here I gave you this nice, easy, slow 
ball right down the middle. I mean, I think there are 200--
anyway, I do know there are 200-plus reports that I think you 
have identified. I, again, look forward to working with any of 
my colleagues on this.
    I agree with Senator Johnson that we need better metrics. 
We need to measure those metrics. We need to have a limited 
number of policy goals so that we can measure the effectiveness 
of these programs on a regular basis. And one of the ways I 
think we can get there is if there are a series of other non-
essential goals that are paperwork being filled out, 
elimination of that. It is not going to solve the whole 
problem, but it would be a sign to the Federal workforce that 
we, as the policy makers, are actually going to focus in in a 
better way on a more limited, specific set of goals with 
measurable metrics.
    So I will let everybody else get one more bite at the apple 
before we go to the second panel.
    Senator Ayotte. Just two things. You mentioned this 
geospatial issue up front. So what do we need to do on that?
    Mr. Dodaro. I think you need to have oversight by OMB and 
this interagency group and to have them specify how they are 
going to change the budget process to make this more visible, 
that could be made more visible to the executive branch and to 
the Congress. And then I think you can ask a lot more specific 
questions about it. And there is also overlap even at the State 
and local level. So I think this is a big area you could save 
millions.
    Senator Ayotte. Great. Okay. We are going to have a catfish 
amendment next week. Why should people vote to eliminate that 
catfish program in the 2008 farm bill, because we keep trying 
to eliminate it.
    Mr. Dodaro. Right.
    Senator Ayotte. It seems an example of government absurdity 
to me.
    Mr. Dodaro. Yes. Well, there are two fundamental reasons. 
One is that, right now, there would be, with the addition of 
the agency at the Agriculture Department, there would be three 
different Federal agencies inspecting catfish. You already have 
Food and Drug Administration doing it. The Fish and Wildlife 
Service play a role. We think you need risk-based approaches to 
do that, but they are already inspecting most of the seafood at 
FDA.
    Secondly, it is going to cost additional money. The 
Agriculture Department estimates it would be at least $15 
million for them to do that. So you have multiple doing 
something and it is costing more money.
    Senator Ayotte. So we should get rid of it?
    Mr. Dodaro. Yes.
    Senator Ayotte. Thanks.
    Chairman Warner. I just want to add that I am a cosponsor 
of that amendment. Good bipartisanship.
    Senator Johnson.
    Senator Johnson. You will have my vote.
    Just, Mr. Holdren, I guess I would appreciate your 
cooperation. We will probably submit a number of questions 
afterwards and look for those metrics over time, because--
    Mr. Holdren. Absolutely.
    Senator Johnson. --as Senator Ayotte is aware of the fact, 
I am big on numbers, and if you are going to solve a problem, 
the first step is to admit you have one, and then, secondly, 
properly define it. So I think it is extremely important that 
we go back, take a look at what has happened since, you know, 
for example, the inception of the Department of Education. Take 
a look at those metrics. Has it worked? Has it not worked? And 
define why it has not.
    Information is powerful. The only way you are going to 
solve problems is properly define them. So we will follow up 
afterwards so you can get some information on the record. 
Thanks.
    Mr. Holdren. I agree.
    Chairman Warner. Well, I want to thank again this first 
panel. Mr. Dodaro, thank you for your continued good work at 
the GAO. We are going to, I think in a common way, work to put 
some of your recommendations into legislative language. I also 
would again encourage my colleagues to look at this DATA bill 
in terms of standardizing financial accountability.
    I do think one of the things we ought to look at, as well, 
is this question of ability to do the kind of level of 
reorganization that Dr. Holdren is trying to do on the STEM 
programs, but I can assure you is being held up as much from 
the Congressional standpoint. Any executive needs to have that 
power.
    And, Dr. Holdren, I commend you for the kind of 
consolidation work. I agree with Senator Johnson, we need the 
metrics, but I do believe the investments we make in STEM 
education are critical to making sure America stays competitive 
in the 21st century.
    So I thank the first panel and would invite the second 
panel up. I know Senator Coons is anxious to introduce one of 
the panel members. Thank you, gentlemen.
    [Pause.]
    Chairman Warner. I want to welcome the second panel, and 
let the record show that it is no reflection of the quality of 
this panel that the previous two witnesses left with such large 
entourages. We are very anxious to hear from both of you.
    I know, again, Senator Coons has got to run back to a 
markup, so I am going to let him go ahead and introduce Senator 
Nicole Poore, a member of the Delaware General Assembly. The 
Senator Chairs the Delaware Joint Sunset Committee and we 
welcome her to this committee hearing and know that the idea of 
sunset legislation and how we actually put to rest rules, 
regulations, programs, and others that have outlived their 
usefulness is something that is of great interest to this 
group. With that, I will let Senator Coons make a more formal 
introduction.
    Senator Coons. Thank you, Chairman Warner, and thank you to 
our second panel and in particular to my friend, Senator Nicole 
Poore from Delaware. I am grateful that she is able to join us 
as a witness on this hearing today on government efficiency.
    Senator Poore is a lifelong Newcastle County, Delaware, 
resident and serves as State Senator for the 12th District and 
is, as you mentioned, the current Chair of Delaware's Joint 
Sunset Committee. She has been a tireless advocate for 
Delaware, fighting for education and has advocated on behalf of 
disabled children throughout her career, and I must say to my 
colleagues, I would hate to be on the other side of the dais 
from Senator Poore's searching questioning.
    Today, she will be here to discuss her work as Chair of our 
Joint Sunset Committee and her work to make Delaware State 
Government more efficient and more effective. I am pleased she 
has been joined by my friend, longtime State Senate President 
Pro Tem Tony DeLuca, as well as her husband, Bill, and Sarah 
Wootten and Deborah Allen from staff to the committee in the 
Senate.
    Senator Poore has a degree in criminal justice from 
Wilmington University and she and Bill are the proud parents of 
three children, and I am grateful for her making the effort to 
join us today. Can she proceed with testimony?
    Chairman Warner. Thank you, Senator Coons, but let me also 
go ahead and introduce Dr. Rosenbloom and then we will hear 
from the Senator.
    Our other witness is Dr. David Rosenbloom. Dr. Rosenbloom 
is a Distinguished Professor of Public Administration at 
American University, where he specializes in constitutional 
administrative law, administrative theory history, and 
personnel management. He is the author or editor of over 300 
scholarly publications. He is the author of the book entitled, 
Building a Legislative Centered Public Administration. He 
served on the Clinton-Gore Presidential Transition Team for the 
Office of Personnel Management in 1992 and holds a Ph.D. from 
the University of Chicago. Again, Dr. Rosenbloom, welcome to 
the committee.
    Recognizing that Senator Coons is anxious to hear from his 
fellow Delawarean, we will let the Senator go first.

   STATEMENT OF HONORABLE NICOLE S. POORE, SENATOR, DELAWARE 
  GENERAL ASSEMBLY, AND CHAIR, DELAWARE JOINT SUNSET COMMITTEE

    Ms. Poore. Good morning, Mr. Chairman, Senator Coons, 
Senator Ayotte, and Senator Johnson. Thank you for the 
opportunity to be here today to discuss the sunset review 
process in Delaware.
    The comments that I will be making today address how the 
Joint Sunset Committee was established in Delaware. I will also 
provide an overview of the sunset review process and some of 
our recent accomplishments. I will discuss how Delaware's Joint 
Sunset Committee compares to the sunset committees in other 
States.
    The Delaware General Assembly passed legislation 
establishing the sunset law in 1979. The intent of the enabling 
legislation was to provide a system of periodic legislative 
review of the State's agencies, boards, and commissions. The 
underlying purpose of this legislative review process was to 
determine the following: Is there a genuine public need for the 
entity under review? If the answer is yes, is that entity 
effectively and efficiently performing to meet the need?
    The Joint Sunset Committee is a bipartisan committee 
comprised of ten legislators. Five Senators are appointed to 
serve on the committee by the Senate President Pro Tem, and 
five Representatives are appointed to serve by the Speaker of 
the House. Of the five appointed from each chamber, three 
committee members are appointed from the Majority Caucus and 
two are appointed from the Minority Caucus. The Chair and Vice 
Chair are chosen by the Senate President Pro Tem and the 
Speaker of the House. The Joint Sunset Committee is 
consistently reinvigorated with new members each General 
Assembly who accept the challenge of leading in an environment 
that requires making complex and difficult decisions.
    The Joint Sunset Committee is tasked with guiding the 
sunset review process. The committee's governing statute 
mandates that entities can be reviewed every six years unless a 
significant and substantiated reason is provided.
    Sunset reviews are generally conducted over a ten-to 12-
month period commencing on or before May 30, when entities are 
selected to be reviewed by the Joint Sunset Committee for the 
following legislative year. An entity is notified of their 
selection in June and generally receives the first of several 
questionnaires in July. The questionnaires are designed by 
committee staff for the purposes of conducting a comprehensive 
performance evaluation. The initial request for information may 
include diagrams showcasing the governing structure for the 
agency, board, and commission, goal objectives, duties, 
responsibilities, authority, financial information, and 
education, and that is just to name a few.
    Responses submitted to those questionnaires as well as 
information obtained from researching entities in Delaware and 
those in other States with similar missions are organized in a 
draft report. The preliminary or draft report is provided to 
committee members for their review and used during the public 
hearing, which is statutorily mandated to begin on or before 
February 7 each year.
    Public hearings are scheduled and in the evening to allow 
for greater participation by the public. Public hearings serve 
as a critical component of the sunset review process. They 
provide an opportunity for the Joint Sunset Committee members 
to hear from those who are impacted the most to determine if 
the agency, board, or commission is protecting the public's 
health, safety, and welfare.
    At the conclusion of the Joint Sunset Committee public 
hearing, additional meetings are scheduled for the purpose of 
consideration of recommendations submitted by the entity under 
review, the Joint Sunset Committee members, various other 
stakeholders, the public at large, as well as those offered by 
the committee members.
    The Joint Sunset Committee members consider each 
recommendation individually and has recommendations are often 
adopted unanimously, which speak to the nonpartisan nature that 
has typically governed the way members conduct the business 
before the Joint Sunset Committee.
    At the conclusion of the Joint Sunset Committee may 
recommend the continuation, the consolidation, reorganization, 
transfer, termination of an agency, board, or commission. The 
committee is mandated by statute to publish a final report on 
or before May 30 each year which shall include any official 
action taken by the committee, adopted recommendations for the 
entities under review, and a schedule of the sunset reviews 
selected for the following year.
    Some of the accomplishments in the State of Delaware. We 
have performed 241 sunset reviews evaluating and analyzing 
approximately 100 State agencies, boards, and commissions. In 
2009, the Joint Sunset Committee adopted recommendations and 
sponsored legislation renaming the board the Compensation 
Assistance Program, transferring its duties and employees to 
the Delaware State Department of Justice and provided for the 
staff and executive director to award benefit compensation to 
victims based on existing criteria.
    In 2008, the Joint Sunset Committee staff worked with the 
board and commission staff in the Governor's office to identify 
inactive gubernatorial-appointed boards, councils, and 
commissions to be submitted to sunset review. As a result of 
these efforts, to date, the Joint Sunset Committee has 
terminated 19 inactive entities by sponsoring legislation 
which, upon enactment, successfully eliminated them from 
applicable governing statutes.
    To speak in regards to other States, approximately half of 
the States have established entities with a similar purpose and 
function as Delaware's Joint Sunset Committee. However, the 
Texas Sunset Committee Advisory Commission is often used as the 
benchmark by which all other sunset committees across the 
country are measured.
    In a number of ways, the process in place in both Delaware 
and Texas are almost identical. Both States employ specific 
review criteria, engage in similar sunset review processes, 
encourage greater participation from the public in the review 
process, and work to ensure basic recommendations are included 
for consideration when applicable.
    Two examples of a basic or standard recommendation which 
Delaware and Texas both utilize include requiring State 
entities to establish conflict of interest policies as well as 
including language to disqualify and remove gubernatorial-
appointed board members from their positions when a specific 
criteria is met.
    There are some also significant and fundamental differences 
between the Delaware Joint Sunset Committee and the Texas 
Sunset Advisory Committee which have greatly impacted how both 
legislative committees operate today. For example, in Delaware, 
the number of State entities eligible for sunset review total 
more than 300, as the definition for eligible agency is written 
broadly. In Texas, approximately 130 State entities are 
eligible for sunset review, and each of the eligible entities' 
enabling legislation include both the periodic sunset review 
requirement and a date that the entity could be abolished if 
legislation action is not taken.
    With regard to the sunset review schedule, Delaware is 
prohibited from conducting a sunset review within six years of 
a prior review. Entities are selected by the committee members 
and attention can be diverted to those with developing and 
ongoing issues that the legislature has not had the opportunity 
to address. In Texas, sunset reviews are conducted 
approximately once every 12 years. However, there is some 
flexibility with changing the regimen schedule should an 
emergency or unexpected issues arise.
    With regard to action taken or required by the sunset 
committee, the Delaware Joint Sunset Committee can continue a 
State entity without enacting any additional legislation. In 
Texas, a State agency is abolished by the Sunset Advisory 
Commission unless the Texas legislature passes a bill to 
reauthorize the agency for an additional 12 years.
    Finally, Delaware conducts sunset reviews for approximately 
four to six agencies, boards, or commissions each year, as the 
committee is staffed with one full-time employee. In 
comparison, Texas conducts approximately 20 to 30 sunset 
reviews on eligible entities each year and employs 28 staffers 
to assist in this process.
    Thank you for your time, and at any point, I am happy to 
answer questions.
    [The prepared statement of Ms. Poore follows:] 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Warner. Thank you, Senator.
    Dr. Rosenbloom.

    STATEMENT OF DAVID ROSENBLOOM, DISTINGUISHED PROFESSOR, 
 DEPARTMENT OF PUBLIC ADMINISTRATION AND POLICY, THE AMERICAN 
                           UNIVERSITY

    Mr. Rosenbloom. Thank you very much for this opportunity to 
provide historical perspective on Congressional efforts to 
improve the performance of the executive branch administrative 
agencies.
    I will be speaking basically about my findings in the book 
that you mentioned, Building a Legislative Centered Public 
Administration: Congress and the Administrative State, 1946 to 
1999. The book was written with the assistance of Henry Hogue, 
Dr. Henry Hogue, who was then my doctoral assistant and now is 
an analyst in American national government with the 
Congressional Research Service.
    The book is about Congress's effort to reposition itself in 
1946 vis-a-vis the executive branch. What had happened was that 
during the New Deal and World War II, Congress felt that it had 
been eclipsed almost entirely by the executive branch. Senator 
La Follette actually asked the question, how can we maintain 
our place in the constitutional scheme? Congressman Kefauver 
wrote a book, and in that book he has a chapter, ``Is Congress 
Necessary?'' He also suggested that Congress might not exist in 
another 20 years. That book was published in 1947.
    Well, Senator Fulbright sort of nailed the issue, which was 
how do you combine this newly, very powerful, extensive 
executive branch with legislative supremacy, and that was the 
real question Congress faced in 1946. They enacted three major 
statutes that at first might appear not connected, but, in 
fact, there are some very strong connections. These are the 
Administrative Procedure Act, the Legislative Reorganization 
Act, and the Employment Act, all enacted in 1946.
    The Administrative Procedure Act is based on the premise 
that government had become so extensive, Congress could not 
avoid delegating its legislative authority to the agencies, and 
equally important, that it would have to regulate how that 
legislative authority was used.
    The Legislative Reorganization Act created, really, the 
forerunner of the current committee structure in the House and 
in the Senate and also charged the standing committees with 
exercising continuous watchfulness of the agencies under their 
jurisdiction.
    The Employment Act was to promote full or almost full 
employment in the economy through countercyclical spending, but 
from the point of view of several members of Congress, it was 
really a bill to restore the functions of Congress, because 
during the New Deal, Congress had kind of lost control over 
where public works spending went.
    So, we had these three major statutes, and altogether, we 
have this chart. They conceptualized Congress's relationship to 
the agencies as that the agencies are actually Congress's 
extensions for legislative functions, primarily rulemaking, and 
that Congress has an obligation to exercise supervision over 
the agencies. We obviously cannot go in right now into all 
these statutes, but the reason for putting them up there is 
that it is clear that 1946--it did not just stop in 1946, but, 
rather, continued.
    Now, one thing 1946 did not do in terms of the framework 
Congress created was to focus on productivity in a way that 
would be successful. The Legislative Reorganization Act did 
provide for four professional staff for each standing 
committee. The idea behind that, as Senator Dirksen put it, was 
that these staff would go and live in the structure of 
government, and then when members of Congress held hearings, 
committee hearings, they would sit at the elbows of the members 
of Congress and they would say, ``Ask him this question. Ask 
him that question. Ask him about this expenditure. Ask him 
about that procedure.''
    That function, I believe, was institutionalized in the 
Inspector General Act of 1978. I think that was part of the 
idea, what the Inspectors General would be doing. However, the 
Inspectors General, to a very large extent, have focused more 
on audit and investigation than on productivity and advancing 
technology and innovation in the agencies.
    So that productivity piece still remains. Now, the GPRA 
Modernization Act does take a major step in that direction, for 
sure, and maybe that is the only step necessary at this point, 
is really to implement it well, and it may work.
    In my written statement, though, I do suggest it might be 
worth looking at the possibility of having a Chief Productivity 
Officer within the agencies. This would be a little bit 
different from the GPRA arrangement with the Performance 
Improvement Officer because I think that the Chief Operating 
Officer and the Improvement Officer will probably be focused on 
implementing the strategic plan and measuring more than looking 
forward toward how can agencies develop a way of innovating, of 
finding better ways to do programs across the board, not in the 
silos within the agencies but actually across the boards. So 
that is the basic concept behind the Chief Productivity 
Officer.
    Thank you very much, and I am certainly happy to answer 
questions.
    [The prepared statement of Mr. Rosenbloom follows:] 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Warner. Thank you, Dr. Rosenbloom.
    I know Senator Coons has got to get back to a markup, so I 
am going to allow him to go ahead and take my time, and then we 
will go to Senator Johnson, and then I will resume.
    Senator Coons. Thank you very much, Chairman Warner, and 
thank you for your forbearance today of competing priorities. 
As we all know, we serve on several committees and at times it 
is difficult to juggle them all.
    Senator Poore, if you would, what I heard in your 
description of Delaware's Joint Sunset Committee some could 
take as real lack of success. It eliminated 19 boards and 
commissions, I believe, the last year, but these were defunct, 
understaffed, or irrelevant. that is great. My sense of the 
Joint Sunset Committee is it really has not eliminated whole 
agencies of government, the sort of big things that are the 
most expensive or most demanding, yet your testimony implies 
that has been effective. So help me with how the committee has 
been successful if it has not eliminated whole departments.
    What is the dynamic that allows a bicameral, bipartisan 
process of negotiation where unanimous recommendations are 
essentially adopted legislatively in consultation with the very 
departments they seek to review. Has it worked? Has it been 
effective? If so, why? If not, why not?
    Ms. Poore. Certainly, Senator Coons. It has been effective, 
and what our goal is with this committee is to offer the 
opportunity to the agencies, boards, and commissions, quite 
frankly, to have bragging rights, to talk about how they have 
invested back in the public and the wonderful things that they 
have done for the public. Our job at that point is then to 
determine that they have successfully done that by the laws in 
which they have written or the policies that they have written 
forth for their organization, agency, or commission.
    When we have found, and as a new Chairwoman for this 
particular committee, when that has taken place in the past, 
they have either been incorporated under another agency, such 
as the Department of Justice, and so, therefore, those 
employees have gone underneath that department. But it has 
proved to be successful.
    Senator Coons. So if I hear you right, there are recent 
instances where you have got a functioning entity, but it is 
underperforming.
    Ms. Poore. Yes.
    Senator Coons. It is not meeting its mission. It is off 
focus. It has been years since it has been effectively 
reviewed. And you have been able to work out legislatively an 
agreed to process by which it is downsized, streamlined, and 
then put into another agency that can offer more effective 
operational oversight.
    Ms. Poore. Correct.
    Senator Coons. So the three outcomes we have seen in recent 
years, one, just outright elimination. That has mostly happened 
with boards or commissions that were non-functioning.
    Ms. Poore. Mm-hmm.
    Senator Coons. Downsizing and reallocation to a stronger 
oversight agency. Or, because they know you have the 
legislative power to restructure them or eliminate them, the 
large departments of our relatively small government come in 
knowing that they have to do better and they do perform better 
and you leave them largely alone.
    Ms. Poore. That is--
    Senator Coons. Is that the range of the three outcomes you 
have seen in Delaware?
    Ms. Poore. Yes.
    Senator Coons. Any lessons you have learned by looking at 
other State commissions? You mentioned in some detail Texas. 
You mentioned about half of the States have comparable sunset 
committees. What lessons have you seen and what things do you 
think we in the Federal Government should consider as we 
discuss the possibility of a comparable sunset committee for 
the Federal system?
    Ms. Poore. So, Senator Coons, again, being a new committee 
member, what I would suggest is that bringing these boards, 
commissions, and agencies forth to be able to understand that 
they are actively working, that they are producing great 
results for the public, that is going to be your first 
determination on whether or not and where to move forward, and 
whether that means that you are incorporating them into another 
agency or you are allowing them to stand alone.
    Senator Coons. We have had some hotly contested discussions 
here about whether whole agencies of our current Federal 
Government should exist or whether they need to be 
significantly streamlined. What I think commends Delaware's 
example is that it does function in a bipartisan and bicameral 
way and does actually achieve results. So, I am grateful for 
your presentation today and for those who have long served in 
our State Senate and who have made this an effective committee 
over now two generations. Thank you, Senator.
    Ms. Poore. Thank you.
    Chairman Warner. Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    By the way, I think a sunset committee is a great idea. I 
have been proposing one since I got here. I have not been 
crafting it properly to get the kind of takers on it.
    I also, by the way, appreciate the hearing we had, was it 
last year, about one in, out rule. Again, I would like one in, 
ten out.
    [Laughter.]
    Senator Johnson. The problem, certainly, with, I think, all 
levels of government is everything is additive. There really is 
not a process other than something like a sunset committee that 
is actually subtractive, something that is formalized. And so I 
certainly commend Delaware and the other States that have that.
    Is there a method, Senator Poore, of actually prioritizing 
the look, or is it just basically cycling through every agency?
    Ms. Poore. Agency, that you are asking this question, 
Senator, is that this past week, we actually decided on what 
agencies will be reviewed for next year. In consideration of 
what we saw and what was presented by our analysts, there are 
two agencies that have not been reviewed, ever, and there are 
two agencies that have been reviewed.
    But as an example, in the State of Delaware, and actually 
nationwide, we are going to be reviewing physical therapy and 
athletic directors, the reason being is at one point in time, 
in 1983 when they were first reviewed, there was just a 
Bachelor's level degree needed. Since then, it has increased to 
a Doctoral degree. And for that reason alone, we are going to 
review that, because we know that the code needs to be updated 
and so that would be a good start for us for the physical 
therapy and athletic directors.
    Senator Johnson. You mentioned Texas has 28 staff members. 
How many does Delaware have?
    Ms. Poore. Well, I am happy to say that we have one full-
time staff member and she actually is with us today. She has 
done an outstanding job in keeping us on track. Sarah Wootten 
joined me today in preparation for this hearing.
    Senator Johnson. My guess is as you proceed with the sunset 
committee, you would actually be probably dollars well spent to 
beef up that staff. Do you have any comparable groups in 
Delaware that would act kind of like the GAO to prioritize some 
of these problems, you know, high-risk lists or those types of 
things?
    Ms. Poore. Senator, we work together well with the 
committee. The committee, because we are not staffed at the 
level of Texas, we all work very well together in making sure 
that we are pulling the right agencies for review.
    Senator Johnson. Okay. Again, my guess would be this would 
be a very cost effective--kind of like GAO is actually money 
pretty well spent.
    Dr. Rosenbloom, I have sat through now a number of hearings 
where we talk about how do you make government more efficient, 
more effective, more productive. I mean, I appreciate your 
suggestion about a Productivity Officer, but I come from the 
private sector, as does Senator Warner. In the private sector, 
you have the profit motive. You have to be successful or you 
are just out of business.
    The problem I see with government is failure is rewarded. I 
just covered the statistics in terms of declining SAT scores, 
and what do we do? We keep pouring more money into it.
    So my concern is, okay, an agency is not particularly 
productive, so let us stand up another department within that 
agency. We will call it productivity. Do you really think that 
is going to work? I mean, is there any evidence it ever has?
    Mr. Rosenbloom. Well, in my written statement, I said that 
I realize this is not a propitious moment to advocate for this 
and that I do it with great trepidation precisely for that 
reason.
    I think, whether the Chief Productivity Officer is the 
right solution or not, almost everything we are talking about, 
including what the GAO does, is sort of retrospective. It is 
not proactive. It is not looking forward to make things much 
more efficient. It finds the problem and then tries to fix it.
    And so what I am trying to get at, is there a way, and I do 
not have a specific answer, but is there a way to have somebody 
looking out for the whole agency from a productivity point of 
view, looking for innovation, somebody who has got knowledge of 
management, contemporary knowledge of management and technology 
and could make recommendations when application of that 
knowledge is warranted.
    Also, in the written statement, see, I think this kind of 
officer, whatever it might be, should be in close contact with 
the relevant committees in Congress. I think that is the link 
in this 1946 approach that did not work out quite the way 
Senator Dirksen thought it would work out. So it would be a 
source of both innovation and providing a great deal of 
information to Congressional committees.
    It is not an easy problem. I mean, obviously, if it were an 
easy problem, we would have solved it.
    Senator Johnson. So, and again, coming from the private 
sector, as a manufacturer, I am always looking for the root 
cause, and so you need information. And I guess that would be a 
question for both panelists. Do you know, or have you seen, not 
only in the Federal Government but in State governments, have 
you seen a governmental entity that actually does a pretty good 
job of actually measuring the intended consequences of what 
they are trying to do? I mean, are there other actually solid 
examples of that, or is it maybe just hit or miss? And I would 
like to ask both panelists whether you have seen a good example 
that we could maybe look toward.
    Mr. Rosenbloom. Well, if I speak first, I cannot think of a 
good example of that off the top of my head right now. I can go 
back to my library and all and look.
    Senator Johnson. If you find one, let me know.
    Mr. Rosenbloom. I certainly will.
    Senator Johnson. Senator Poore.
    Ms. Poore. Senator Johnson, I would agree. I am not aware 
of any at this time.
    Senator Johnson. So, in the State of Delaware, even though 
you have got the sunset committee, you are still battling with 
the fact that you really do not have information on measurement 
of programs and you struggle with that as part of your process.
    Ms. Poore. Senator Johnson, I would probably want to do 
more research to give you a better defined answer on that and I 
am happy to do so at a later time.
    Senator Johnson. Okay. Well, thank you. Thank you, Mr. 
Chairman.
    Chairman Warner. Well, thank you, Senator Johnson.
    I do think that one of the things, and we are still working 
through this idea, as well, how you get the incentives at the 
agency. I am not as--I am trying to find the right word--
    Senator Johnson. Skeptical.
    Chairman Warner. I am not as skeptical about all of the 
functionality and operations. I have seen a lot of waste in the 
private sector, as well. But you are right that there is no 
incentive, ever, to downsize or take away functionality, 
outmoded rules or regulations, and something that realigns 
incentives. And the one in, one out, which is the U.K. version, 
which actually, as we dug into, was not quite as robust as it 
looked at first--
    Senator Johnson. If you add--
    Chairman Warner. Yes, but where you have got--if you add, 
you have got to find something to take out, you know, both 
makes the agency then think, is there a way we can-- before we 
do this additive, can we do a slightly less additive that may 
still get some of the goal because you have got an incentive 
there that you have actually got to remove something. And I 
look forward to working with you and others in trying to get 
these incentives aligned the right way.
    I just have two quick questions, and I really thank the 
panel. Senator Poore, you are out of Dover, so I am going to 
ask you a hard question now. One of the things--and we, this 
panel up here, we are all made up of generally newer members, 
so we are not quite as established as some--
    Senator Johnson. It is not our fault.
    Chairman Warner. No. It seems here that efforts to 
eliminate, downsize, consolidate, often run into the 
authorizers and/or appropriators of these programs who 
sometimes will take great affront that their particular 
program, that we have the audacity to think that it might be 
worthy of being consolidated or eliminated. You know, you have 
kind of got over the hurdle of bicameral, bipartisan. Great. 
How do you take on your appropriators?
    Ms. Poore. Senator, again, we offer the opportunity in 
front of this committee bragging rights. Tell us about your 
agency, your board, your commission. Tell us how effectively 
you are taking care of the public. So it is the best 
presentation. It is the follow-up. It is the financials. It is 
all of those things that make a small business function well, 
and being able to see that happen in an agency and knowing that 
we are protecting the public, I think everybody comes with the 
best information, with the best package. And when we see that 
something needs to be adjusted, we are putting in legislation. 
We are offering guidance with this committee that sits in front 
of them on how we can best direct them to be a better agency.
    Chairman Warner. I guess the only thing I would just say, 
again, if you just come forward and talk about your successes, 
that is of merit in terms of making priority. But one of the 
things we have done with GPRA, and I think the jury is still 
out whether we really use the information, but no matter what 
agency you are, you have got good programs, and chances are, 
you have got some that are not as good. Trying to also have a 
process where the actual operation and function of government 
has to come in and publicly acknowledge where they think there 
is room for improvement or some of those less successful 
programs is really something that is missing.
    And I have got to tell you, we had, as we were trying to 
move GPRA forward and there was some push-back, I thought at 
first it was partisan in nature. It was much more--and not even 
the senior levels of the administration, but deep within each 
of the agencies, this reluctance to say, hey, we do not want to 
have to acknowledge our less successful efforts. And we have 
got to get that into the mix. You may be flush in Delaware. We 
are not too flush at the national level. We are going to have 
to find ways to do this consolidation and elimination.
    And again, I think the jury is still out whether we use 
this information. It has taken us three years to get the 
administration to come forward with these underperforming 
programs. It will be up to us to say whether we will use this 
data.
    Last question, and again, I thank the panel. Dr. 
Rosenbloom, one of the things that you talked about in your 
historical basis was that, initially, the IG was going to maybe 
play this role. It seems like the IGs have evolved into more of 
the whistleblower or the audit function or the investigative 
role. Is there a way to rethink about the IG role in a way that 
might be about productivity and performance?
    Mr. Rosenbloom. I think it will be difficult. I think the 
IG culture is probably pretty well institutionalized now. But 
also, the statute requires this separate system for audit and a 
system for investigation. So it is actually built into the 
statute that those are the two major functions. The National 
Performance Review wanted to reorient the IGs and they, for the 
reasons that you are sort of mentioning, and I do not think 
they made any real progress on that.
    I mean, that is why I am suggesting, with trepidation, that 
maybe some other functionary like an IG, who reports to the 
agency head or the Chief Operating Officer and Congress, or the 
Congressional committees, and does it frequently, would be 
better. The IGs are kind of sporadic. Their reports are 
extremely valuable, but they are not aimed at greater 
productivity. They are aimed at correcting waste, fraud, and 
abuse.
    Chairman Warner. I think you do raise a good point that 
most of our actions from GAO on, as good of work as they do, 
are all retrospective as opposed to how do you look forward--if 
you are going to implement a new initiative, how do you look 
forward in terms of productivity on the front end. It is an 
interesting point.
    Senator Johnson. Just one quick question. I think, Senator 
Poore, you were talking--I think it might have been Texas, that 
their sunset committee actually recommends action, and would 
the program they are recommending sunset without legislative 
action? I mean, is it automatic but for legislative action?
    Ms. Poore. Yes, sir.
    Senator Johnson. Is that the way Delaware's works?
    Ms. Poore. No, not at all.
    Senator Johnson. Okay. I like the Texas program.
    Chairman Warner. Surprise, surprise, surprise.
    [Laughter.]
    Chairman Warner. With that, thank you, Senator Johnson. 
Thank you, witnesses.
    The hearing is adjourned.
    [Whereupon, at 11:39 a.m., the committee was adjourned.] 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


     ENHANCING ACCOUNTABILITY AND INCREASING FINANCIAL TRANSPARENCY

                              ----------                              -
--


                      THURSDAY, SEPTEMBER 18, 2013

                              United States Senate,
  Committee on the Budget and the Task Force on Government 
                                               Performance,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:03 a.m., in 
Room SD-608, Dirksen Senate Office Building, Hon. Mark Warner, 
Chairman of the Task Force, presiding.
    Present: Senators Warner, Whitehouse, Ayotte, and Portman.
    Staff Present: John Righter, Amy Edwards, Gregory McNeill, 
and John Lawrence.

              OPENING STATEMENT OF CHAIRMAN WARNER

    Chairman Warner. Good morning, everyone, and I would like 
to bring this Committee hearing to order. Before we get 
started, I want to--and I know Senator Ayotte joins me in 
this--reflect for a moment on the tragedy that took place a 
couple days ago with the Navy Yard. Obviously, as so many 
elected officials and others have said, our prayers are with 
the victims and their families and all the first responders at 
the scene. Five of the 12 victims were Virginians, and we in 
Virginia already know too much about the destruction wrought by 
such trauma. So, again, our thoughts and prayers are with 
those, and clearly we need to find out on a going-forward basis 
how we can make these installations more secure. That is 
obviously the subject of another matter, but I thought it was 
appropriate that we at least acknowledge that this morning.
    We do want to welcome our witnesses and guests today to the 
Budget Committee's Government Performance Task Force on 
``Enhancing Accountability and Improving Financial 
Transparency.'' And I want to again thank Ranking Member 
Senator Ayotte for joining today on this important topic.
    I have to acknowledge that--when I first got to the Budget 
Committee, having been a Governor and somewhat obsessed about 
these issues, I think there was an effort made by the then-
Chair to say, ``How can we make sure that Warner does not be 
too much of a pain in the neck?'' So they gave me this working 
area. I am not sure if you got stuck with that same 
responsibility, but this notion that we have got to find ways 
to make our Government more accountable, more efficient, better 
value for our taxpayer dollars is something that a lot of 
members talk about, but to kind of dig in and do the hard work 
on how we actually get there is a bit more of a challenge.
    So that is, again, where we start today's hearing. It is 
long overdue, and incredibly important. We have got to do a 
better job of figuring out and decoding for the American 
public, how our Federal dollars are actually spent and what 
kind of value we get for the buck.
    Over the past several years, I have been working on this 
area of financial transparency. There are efforts, similar 
efforts, in the House, and we will come back to that in a 
moment. This should be an area where I think there should be a 
great deal of bipartisan accord, and actually it should be an 
area that I hope we can, on this issue of the DATA Act, 
actually move forward.
    We are about to go into budget debate part 4 or part 5 
coming up, I think, right now, as we think about debt ceilings, 
super committees, fiscal cliffs. I somehow fear that this next 
round may be--while there is public fatigue on some of this 
issue, this next round could actually be one of the most 
challenging because there seems to be even less of a path 
forward than we have seen in the past. And while we will work 
through part of this, a corollary to the budget issues are the 
issues of, okay, even once we hit these top-line numbers, how 
do we make sure that those numbers, whatever they are, are 
spent in a more effective and efficient manner. And that is, 
again, the work of this task force.
    I believe very strongly that our Federal Government-- and I 
did not come to this totally as a neophyte. I came as a former 
business guy and a Governor. Until I got this job, I did not 
fully appreciate how completely inefficient much of our Federal 
Government was in terms of its organization, its structure, and 
clearly issues around transparency.
    This year, the GAO identified hundreds of duplicative 
programs across Federal agencies. For example--and I know this 
is something that Senator Coburn had pointed out a number of 
times, and I 100 percent agree with him--we have 82 different 
wind-related energy programs in six different agencies. You 
cannot get good value for your dollar if you have got limited 
resources that we have around wind energy spread amongst 82 
different programs in six different agencies. Unless we develop 
better data and processes to weed out ineffective programs, we 
will never have the efficient structure that will support our 
long-term budget goals, whatever that top-line number might be.
    One of the stats that I think about every day is that every 
day our debt grows by $4 billion, so there is nothing self-
correcting about the size of our close to now $17 trillion debt 
that will not come about by concerted bipartisan action. Part 
of that also will mean how we make sure that the dollars we are 
spending are spent more efficiently.
    We do not have the right--I do not believe that we have the 
right information to answer the very basic questions about, as 
we send these Federal dollars out, how are they spent, where 
are they spent, how are they categorized being spent. The 
remarkable thing is I believe we have over 100 different 
financial reporting systems just within the DOD. You know, 
something that appears as a grant in one area comes out as an 
expenditure in another area. And if you are a taxpayer or if 
you are a Senator trying to do responsible oversight, I just do 
not think we can do our job.
    There has been small progress. One of the things I am very 
proud of we passed back in 2010, the Government Performance and 
Results Modernization Act, GPRA. I like to call it the 
``biggest little bill that nobody has ever heard of'' that 
actually for the first time ever requires the administration to 
report a couple things they never wanted to report before: one, 
not only what are their best-performing programs but their 
least-performing programs. Everybody likes to highlight our 
successes. One of the things we do a dreadful job in Government 
is talking about those programs that are not that effective. 
And as Senator Ayotte knows, having run back in New Hampshire a 
large Department in terms of Attorney General, and I running a 
State, if you have a governmental agency that has 50 or 60 
different goals, then really they have no goals. Unless you can 
narrow your goals and priorities to a definable number, you are 
not going to get the kind of productivity that we would need. 
So GPRA also took that very important action. It was long 
overdue, and because of this legislation we now have the first 
inventory of all Federal programs, and agencies, as I 
mentioned, are now identifying both high-and low-priority 
programs as well as providing the kind of quarterly update that 
we in Congress and taxpayers should see on a regular basis.
    But we have still got a long way to go on performance data, 
and I think we are seeing gradual improvement. However, we need 
to make sure we take new steps to improve the quality of 
financial data available.
    If you take a closer look at the GAO duplication report, 
you will notice that about half of those 82 wind-related energy 
programs do not have funding information. We have these 
programs out there and you do not know the funding information, 
how can anyone make an appropriate assessment of what we ought 
to keep, what we ought to consolidate, and where we go from 
here?
    I believe this is totally unacceptable. We should have 
information we need to hold the Federal Government accountable, 
and we have been working to try to make that actually something 
that is achievable.
    So since the Federal Government spends more than $3.7 
trillion each year with more than $1 trillion of that $3.7 
trillion in awards, accurately tracking these funds in a 
consistent way can be a big job. And the data collected by the 
budget shops, the accountants, and the procurement officers and 
grantmakers should all be combined and reconciled in a more 
relevant, user-friendly, and transparent way. And we have 
legislation now in front of us that I think will take at least 
a step in that direction.
    The various systems should be available to work together 
based on consistent financial standards so that policymakers 
and the public can track the full cycle of Federal spending, 
and that is what the legislation, that this hearing is at least 
indirectly is all about. The Digital Accountability and 
Transparency Act, or DATA, that is what this act will do. And I 
am pleased that Rob Portman has been the cosponsor of this act. 
We have worked on this for a couple years. I welcome--would 
love to have Senator Ayotte and other members who may have 
staff members here joining us. This DATA Act in the House 
actually passed out of their Oversight and Government Reform 
Committee in a bipartisan, I believe unanimous, way, a 
committee that, cosponsored by Chairman Issa and Ranking Member 
Cummings. That kind of diversity on that committee, to pass out 
almost bipartisan--and unanimously--means we ought to be able 
to do the same, and I hope that other members of this Budget 
Task Force will sign on.
    Let me just very briefly go through the four improvements 
that DATA will make, and then I want to turn to Senator Ayotte 
and our very important witnesses.
    First, it creates transparency for all Federal funds. The 
DATA Act will expand the current site of USASpending.gov to 
include spending data for all Federal funds by appropriation, 
Federal agency, program, function, as well maintain the current 
reporting for Federal awards like contract grants and loans.
    This expansion of USASpending.gov will allow policy makers 
and the public to actually track from start to finish Federal 
funds more clearly and make the link between spending and 
budget priorities. This is very, very important in terms of 
bringing clarity.
    Second, it sets governmentwide financial data standards. 
Our Task Force closely monitored the effects to increase the 
transparency for Recovery Act funds, and the reason that 
oversight was so successful was that they finally had 
consistent standards for reporting the data. And our taxpayers 
were able to tell where the funds and projects were located in 
their community.
    So the DATA Act requires the Department of Treasury, rather 
than an earlier version of this act that would have created a 
whole new agency, we said let us go ahead and build upon the 
very good work that is done at Treasury, and I think, again, we 
have colleagues in the House to agree with this, to establish 
governmentwide financial data standards for Federal agencies to 
expand the transparency across the whole Government. Having 
these commonsense standards cannot be stressed enough as an 
importance, if anybody who has had any background in business 
and finance, you have got to have common standards.
    Third, this actually--one of the things we do in Congress 
is we always add and layer on more and more reporting 
requirements. Sometimes I think we add on so much additional 
reporting requirements that many of the good Federal workers 
spend way too much of their time doing duplicative reporting 
rather than actually getting us information in an efficient and 
timely manner. So the DATA Act actually requires OMB to review 
existing Federal recipient financial reporting to reduce 
compliance costs based on new financial data standards. I have 
been concerned about the compliance costs for the recipients of 
Federal funds. It appears that with all these overlapping 
systems we are asking many of these recipients to actually 
report multiple times to multiple agencies in a way that does 
not improve transparency at all, and I know we are going to 
hear from the witnesses on that issue.
    Finally, it improves data quality. Under the DATA Act, the 
Inspector Generals at each agency will be required to provide a 
report every 2 years on the quality and accuracy of the 
financial data provided by USASpending.gov. The GAO will also 
create a governmentwide scorecard on data quality and accuracy. 
Again, these things get kind of wonky, but they are all very, 
very important in moving forward in an area where we are going 
to have continued limited financial resources. We must have a 
reliable system in place to track Federal funds and compare 
spending across Federal agencies to get the best value for 
taxpayers and reduce duplication.
    Again, I want to particularly thank Senator Ayotte for 
being willing to join me in this Task Force as the Ranking 
Member. As we see by perhaps the lack of other attendance, this 
may not be the sexiest issue out there, but if we are going to 
get to the core of both getting the top line right for our 
budget but also making sure that how those dollars that we do 
allocate are spent more efficiently, we have got to have these 
kind of standards in place.
    And, with that, I would turn it over to Senator Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you, Mr. Chairman. I actually think 
transparency is sexy, so I think this is important for the 
Government, and I really believe that your efforts in the DATA 
Act are excellent. So my staff has been reviewing it, and one 
of the things I like about it is that we keep creating more 
requirements for Federal programs, but are we getting more 
transparency, are we getting any metrics that measure whether 
we are going to have the efficiency and effectiveness of 
Federal programs?
    So I really appreciate your efforts here, and I think this 
is a very overlooked area of the importance of Government. The 
more transparency we have, the more accountability that the 
Federal Government has from our constituents, and there is such 
great frustration, understandably, with the American people 
that if they cannot figure out where money is spent in 
Washington, then there is no accountability. They cannot ask 
questions of their elected officials, and they cannot decide 
whether something is worth the money that they are giving the 
Federal Government and their investment, because it is their 
money at the end of the day.
    And one of the things that we see so much in Washington is 
we see the examples of all kinds of wasteful spending. Right? 
So, I mean, I have multiple examples here of just recent 
examples. Yes, last week the Government Accountability Office 
released a report in which it estimated that the Social 
Security Administration made $1.2 billion in potential cash 
benefit overpayments to about 36,000 individuals in January of 
2013. Other examples from almost every department in the 
Federal Government. I have an example here from the Department 
of Transportation IG report: ``The Maritime Administration did 
not establish effective oversight mechanisms when it carried 
out its port infrastructure development responsibilities.''
    In one case identified in the report, MARAD was authorized 
to administer funds for developing and modernizing the port of 
Anchorage. The cost estimate for this program was originally 
$211 million, and it actually came in at $1 billion. So this is 
just--I have a whole host of examples. Mark has looked at all 
those examples over the years as well. And our constituents get 
rightly frustrated when they are going through hard times at 
home and they are having to adhere to a budget and not spend 
money that they do not have, when we are nearly $17 trillion in 
debt here, and we are where we are, thinking about that there 
is not this type of openness within our Government. And the 
Chairman pointed out about the GAO reports on all of the 
duplicative programs, and there have been many--not just in the 
wind area that you have identified--for example, job training 
programs, multiple examples where we have had duplicative 
programs. And I think one of the issues and challenges we face 
is there is no measurement of effectiveness.
    So I do appreciate the effort that you have made with your 
prior legislation, but we need to have--if we are going to 
expend taxpayer dollars, the type of transparency we also need 
is measurements and metrics of effectiveness.
    You know, Ronald Reagan once said that there is nothing 
closer to eternal life than a Government program. Why is that? 
The reason for that is because we are not measuring 
effectiveness, we do not have the type of transparency we have 
in our Government, and so, therefore, things continue under the 
radar screen when they may have outlived their usefulness or 
there may be other programs that are much more effective in 
accomplishing the purpose that the program set out to achieve.
    And so I achieve very much all of you being here today. 
This is a very important topic. And if we can get things like 
this right in terms of transparency, openness in our 
Government, and more accountability for Government programs, 
then we can address the larger issues, the fiscal challenges 
that we face, and people will have more confidence that when 
they pay taxes, that actually that money is going to something 
that is useful and productive for our Nation. And we owe it to 
our constituents that they can hold us accountable when we make 
decisions on how to expend taxpayer dollars. And so I look 
forward to hearing from all of you here today, and I very much 
appreciate the efforts you have made in this area, Chairman.
    Chairman Warner. Thank you, Senator Ayotte. Again, I want 
to echo what you have just said. Too often when we come up with 
these examples, it is only after the GAO or somebody else has 
done a report, way after the fact.
    Senator Ayotte. Right.
    Chairman Warner. You know, if we had this data on a more 
current basis, if we had it on a more transparent basis, not 
only would we be able to--we as Members of Congress be able to 
do this, but, you know, we have got a pretty active public out 
there that would help us in this.
    Senator Ayotte. Absolutely. We could stop the waste before 
it happens, which would be the goal. And you are right, the 
public would be pointing this out to us, and I think that 
when--every time we see one of those examples, we know that 
there are five more that someone has not discovered. Right?
    So this is a very important hearing, and I appreciate what 
we are doing here today.
    Chairman Warner. And, also, the only counter I would also 
add as well--and we do want to get to the witnesses. I 
apologize for both of us going on. But there are also good 
things that are going on, too, and if we highlight the 
successes as well, that is part of the balance.
    So, again, I want to welcome today's witnesses. Let me go 
through a very brief introduction because we really want to 
hear from you.
    First, we welcome Stanley Czerwinski, Director of Strategic 
Issues at GAO. Mr. Czerwinski will share GAO's recommendations 
for expanding transparency and efforts in recent years to 
improve the data on USASpending.gov Obviously, GAO has been the 
single biggest arm of the government who has been an activist 
for these type of activities, and, Mr. Czerwinski, we really 
appreciate your being here.
    Next we have Mr. Thomas Lee, Director of the Sunlight Labs 
at the Sunlight Foundation. Mr. Lee is going to share 
recommendations for improving financial transparency from the 
Sunlight Foundation's Clearspending report. Prior to his 
current role, he managed the Sunlight SubsidyScope--that is a 
fancy word--an effort to explore the level of Federal 
involvement in various sectors of the economy. SubsidyScope--
maybe you can explain where that word came from.
    And then our final witness today is Mr. Gerald J. Kane, 
assistant vice president for research administration at the 
University of Virginia. At the next hearing we will have 
somebody from UNH.
    Senator Ayotte. There definitely is a Virginia theme here.
    Chairman Warner. Mr. Kane, thank you for joining us today 
to share your experience of more than 25 years in research 
administration.
    Mr. Kane is going to talk about, beyond his great 
background at UVA, the kind of duplicative burdens that we put 
on researchers not only at UVA but at every university across 
America, and ways that we might be able to do some improvement.
    So, gentlemen, thank you again for being here, and we will 
start with Mr. Czerwinski.

STATEMENT OF STANLEY J. CZERWINSKI, DIRECTOR, STRATEGIC ISSUES, 
             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Czerwinski. Mr. Chairman and Ranking Member Ayotte, 
thank you very much for having this hearing, and no need to 
apologize to go on about accountability, transparency, GPRA. 
This is what we live at GAO, so you could have talked forever. 
We would have been happy.
    Also, thank you for having this hearing that coincides with 
the release of our report and, Mr. Chairman, for requesting 
that report. When it comes to transparency, our view is that 
Congress has been visionary and a leader, and the examples we 
think about: In 2006, Congress gave us USASpending.gov. In 
2009, Congress gave us Recovery.gov. And now we have DATA in 
front of us. And our view in our report is that to keep the 
momentum going, you need more legislation, and that is at the 
heart of our report, is that we believe that legislation is 
required to keep up the momentum on transparency. So that is 
one thing that I want to focus on today.
    Another is the need to have standardization. As you 
mentioned in your opening statement, Mr. Chairman, the heart of 
good transparency in terms of efficiency and accuracy is going 
to be at standardization, and I will talk more about that, too.
    And, finally, I want to speak a little bit about the need 
to involve stakeholders, because if you are talking about 
having something that affects the recipients of the funds, you 
want to get their input to make it work most effectively and 
actually to have them work most effectively.
    So those are the three themes I would like to hit, but 
before that, I would like to spend a moment and just talk about 
where we are today in terms of leadership for transparency.
    Right now, the leadership for transparency is centered in 
the GAT Board, the Government Accountability Transparency 
Board. This is made up of members of the grant-and contract-
making agencies as well as the Inspectors General. The key 
members of the Board are from OMB, DOD, HHS, Treasury. It is 
headed up by Dick Ginman, who is the contract officer for DOD. 
The Vice Chair is Dave Williams, who is the Postal Inspector 
General; Kathy Tighe, who is the head of the RAT Board, the 
Recovery Accountability and Transparency Board; as well as the 
Education IG are all key members.
    So our view is you have the right people, they have the 
right focus, but there is an inherent limitation in what they 
can do based on their governance. The GAT Board does not have 
clear lines of authority. It does not have its own funding. So 
they are dependent upon a loosely knit configuration of the 
grant-making and contract-making agencies to carry out their 
work. And this has a limitation as to how far they can take it.
    In terms of standardization, I think this gives a really 
good example of when a limitation comes into effect. For 
standardization, what you want is every agency to name things 
the same way across all agencies, and that way what it does, it 
links up the award with the payment. The beauty of this is that 
the payments are already audited, so you have complete, 
accurate, consistent data on payments that right now we cannot 
link up with awards, so you cannot have it cradle-to-grave. But 
if you have standardization, you can do this.
    The other piece of standardization that is very good is 
that it is efficient. It allows for pre-population of the data 
systems. We are not asking people to do over and over again 
information that we already have and, frankly, that we already 
have right. So when you are entering it over and over again, it 
just more work, and it can introduce more errors. So 
standardization is a win-win, and the GAT Board believes in 
standardization, as do we. But they do not have the power to 
compel it.
    So what they have done instead is taken an incremental 
approach, and working with OMB, there is guidance out there 
right now that says agencies should have unique identifiers but 
only within their agency. Therefore, we cannot have the cross-
government look, and that is what is essential. And I know you 
will hear more from the other witnesses about standardization, 
so I want to move on then to stakeholder input.
    A contrast between what we have now and what we have with 
Recovery.gov is the way stakeholders were involved. I believe 
that in Recovery.gov you have probably among the best examples 
of involving those who had to do the work. When we rolled out 
recipient reporting in Recovery.gov, OMB and the RAT Board both 
reached out to the stakeholders--State and local governments, 
research institutions, nonprofits, Sunlight--and said, well, 
how should we do this? And the guidance came across that way. 
Then, once it was implemented, there were lessons learned. How 
is it going? There were challenges, there were changes. And in 
doing that, what happened was the guidance was improved 
instantaneously. Also, the capacity of those to report was 
enhanced. And very quickly under Recovery.gov we had accurate, 
complete, consistent data. So I cannot overemphasize the 
importance of stakeholders, and, again, I think you will hear 
more about that today.
    In doing our work, we talk to stakeholders. For example, we 
talk to Sunlight, we talk to research institutions, we talk to 
State and local governments. We also had discussions with all 
the major Federal players-- DOD, OMB, HHS, Treasury, the Rat 
Board, the GAT Board. What we do in our work is that when we 
have then done our reports, we give the Federal agencies a 
chance to comment and to give us their reactions. In this case, 
the reactions focused on the three things I mentioned: the need 
for legislation, the importance of standardization, and the 
value involving stakeholders. In all cases, all the Federal 
agencies concurred in what we found, what we analyzed, and what 
we recommended.
    So, with that, I would like to conclude my statement. If 
you have questions, I would be glad to answer.
    [The prepared statement of Mr. Czerwinski follows:] 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Warner. Mr. Lee.

 STATEMENT OF THOMAS LEE, DIRECTOR OF SUNLIGHT LABS, SUNLIGHT 
                           FOUNDATION

    Mr. Lee. Thank you. My name is Tom Lee, and I am director 
of Sunlight Labs, the technical arm of the Sunlight Foundation. 
Sunlight is a nonpartisan nonprofit dedicated to using the 
power of the Internet to catalyze greater Government 
transparency and openness. We take inspiration from Justice 
Brandeis' famous adage that ``Sunlight is said to be the best 
of disinfectants.''
    We believe that data on Government spending is among the 
most important measures that citizens have of their 
Government's priorities. Public spending data allows us to cut 
through political rhetoric and see for ourselves what 
expenditures the Government prioritizes over others. If it is 
timely enough, it also allows private industry, local 
governments, and service delivery organizations to align their 
plans and investments with those made in Washington.
    Since USASpending.gov launched in 2007, Sunlight 
researchers have become very familiar with its underlying data 
systems, and what we have found is troubling. Our data quality 
analysis of the assistance data in USASpending.gov shows that 
it is deteriorating by the year. In 2011, over $900 billion of 
the direct assistance data on the site was misreported.
    For example, according to USASpending.gov, the United 
States spent zero dollars on Medicare Insurance and zero 
dollars on Medicare prescription drugs in 2011, 2012, and 2013. 
And although in testimony to the House Oversight Committee the 
CIO of the Department of Education asserted that ``when [he] 
looks at [his agency's] data in USASpending.gov, it is 
accurate,'' USASpending currently shows that no money was spent 
on student loans from 2008 to 2012, despite these loans 
comprising one of the Department's largest assistance programs. 
But these data sets--
    Chairman Warner. Mr. Lee, I do not mean to interrupt, but 
we both--how is that possible?
    Mr. Lee. I think that the fundamental problem is a lack of 
clear guidance and centralization of authority about what 
should be reported. But various justifications have been used 
for this lack of reporting, including the idea that the 
ultimate beneficiary of the spending is an individual, which is 
exempted from reporting under FFATA. But we have seen this 
excuse used in, for example, school lunch programs where grants 
are given to schools with the rationale that ultimately it is 
the children who are receiving this who are individuals and, 
therefore, the spending does not need to be reported. So I 
think this speaks to the lack of centralization of authority. 
Really just historically there hasn't been someone paying close 
attention to what is and is not being reported.
    But to continue, these data sets are not only full of bad 
data; they are also badly designed. A lack of standardization 
makes it difficult to conduct the type of data quality analysis 
that Sunlight has in the first place and contributes to 
agencies' and recipients' inability to report accurate, timely, 
and complete data about their spending. Without governmentwide 
data standards to facilitate interoperability, using 
complementary data sets as a crosscheck to identify data 
quality problems will remain limited. And without better, 
nonproprietary identifiers for recipients of Federal dollars, 
spending transparency efforts will never fully deliver on the 
promise to reduce fraud and waste that Senator Ayotte has 
referred to. Without an integrated approach to budget, 
spending, and disbursement data, attempts to measure programs' 
efficiency and effectiveness will be stymied.
    While the aims of USASpending.gov are laudable, it has 
failed to fulfill its promise to allow the American public to 
see where their dollars are being spent. We believe that 
further legislative action is needed to allow the site to 
achieve its mission. Sunlight has long been a supporter of the 
Digital Accountability and Transparency Act, or DATA Act, which 
would mandate that the Department of Treasury create a set of 
governmentwide standards to facilitate better spending 
reporting.
    The DATA Act would also make spending data more complete. 
One of the main drawbacks of the Federal Funding Accountability 
and Transparency Act, or FFATA, the law that created 
USASpending.gov, is that it only requires the posting of direct 
assistance and contracts data. This means that much of the 
money spent on general Government operations, including over 
$350 billion annually in salaries, is not present on 
USASpending.gov.
    Indeed, if you were to view overall spending, by agency, on 
USASpending.gov, you might get the mistaken impression that 
agencies that rely more heavily on contract personnel spend 
more money than agencies that do not, since permanent 
employees' salaries are not disclosed. The DATA Act would 
correct this problem.
    Under FFATA, the Government Accountability Office was 
required to report on the implementation of USASpending one 
year after the passage of the act. This report, issued in 2010, 
noted several problems with the site's data. The DATA Act would 
formalize and distribute this oversight role across the 
Inspector General offices at each Federal agency, requiring IGs 
to report every 2 years on the quality of the data submitted. 
While Sunlight has been pleased to conduct our own data quality 
analysis, we believe that the Inspectors General could perform 
a more thorough audit than our resources and access allow.
    The benefits of improving the data will accrue not only to 
the American public but also to Government. The historically 
low levels of fraud associated with Recovery Act spending are a 
testament to the savings that well-executed spending 
transparency measures can deliver. We believe that investments 
in improving Federal spending oversight and disclosure are 
overwhelmingly likely to pay for themselves in smarter and less 
error-prone spending decisions.
    We applaud the efforts of both the administration and this 
Congress to increase the transparency of Federal spending. 
Recent proposed regulations for streamlining award and contract 
identifiers across agencies are a meaningful step forward. 
Sunlight is a supporter of the administrative initiatives in 
this area. But we also believe that the mandate for publishing 
all federal spending should be grounded in law, to demonstrate 
and formalize our Government's lasting commitment to 
transparency about how tax dollars are spent.
    We welcome the Committee's attention to this issue and 
encourage you to continue to engage with spending transparency 
as it relates to your work. Thank you for the opportunity to 
testify. I look forward to answering any questions you might 
have.
    [The prepared statement of Mr. Lee follows:] 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Warner. Thank you.
    Mr. Kane?

   STATEMENT OF GERALD J. KANE, ASSISTANT VICE PRESIDENT FOR 
        RESEARCH ADMINISTRATION, UNIVERSITY OF VIRGINIA

    Mr. Kane. Good morning, Chairman Warner, Ranking Member 
Ayotte, and members of the Task Force. Thank you for the 
opportunity to provide testimony on the transparency and 
Federal reporting requirements. My name is Gerry Kane, and I am 
the assistant vice president for research administration at the 
University of Virginia. UVA is a nonprofit public institution 
of higher education located in Charlottesville, Virginia. In 
fiscal year 2012, the university received research awards 
totaling over $306 million from all sources, of which 80 
percent came from Federal grants and contracts.
    The Office of Research Administration supports the research 
endeavors of university faculty, ensures the responsible 
stewardship of research funding, and oversees the submission of 
proposals, negotiation, and acceptance of awards by the 
university according to State, university, and sponsor 
regulations.
    With such a large research portfolio, UVA interacts with a 
variety of Federal agencies, including the National Institutes 
of Health, the National Science Foundation, the Department of 
Defense, and others. As the Task Force examines legislation to 
create greater transparency in Federal spending and standardize 
across agencies, I would like to highlight several examples of 
duplication and burdensome reporting requirements that do not 
increase transparency but, rather, increase the cost of 
compliance at our public institution.
    In order to comply with Federal reporting requirements, we 
are required to submit numerous reports, at different time 
frames, many of which include the same information in different 
formats. For example, I will use the National Institutes of 
Health.
    The NIH is the largest Federal funder of research at the 
University of Virginia, and this funding has led to numerous 
medical breakthroughs. As one example, recently the School of 
Medicine received a 5-year, $14 million grant, in a consortium 
with other universities, to develop methods to better predict 
which heart disease patients are at the greatest risk of heart 
failure and sudden death.
    This type of award will require us to submit yearly and 
quarterly financial reports, subcontract monthly reports, 
annual principal investigator progress reports. Were this grant 
an American Recovery and Reinvestment Act Award, it would 
require all of the above and additional quarterly reports. This 
information is collected despite the invoicing process, which 
additionally collects information each time funding is drawn 
down from a grant. This reporting schedule is normal for most 
Federal grants across the agencies, so these issues of 
redundancy are relevant to many agencies, not just NIH.
    Another example of inefficiency is our experience with 
agencies losing reports we have filed, which causes additional 
work re-filing. It would be much more efficient to set up a 
Federal report repository where we upload the same form for 
agencies. Then the agencies could reference and download the 
reports at their convenience.
    A third area of our concern is invoicing. This is one of 
the most difficult tasks our office has with agencies as they 
use different systems and some use multiple systems. This 
causes confusion and extra work to determine the appropriate 
system. A key element that would improve invoicing and 
reporting efficiency across agencies would be to allow 
universities and other awardees to upload all data 
electronically at one time for multiple awards. This would save 
many staff hours.
    On a positive note, we have seen one recent improvement, 
which is the launch of the System for Award Management--SAM. 
Presently, it combined three existing reporting systems to make 
a more efficient award management process.
    UVA, along with the Association of American Universities, 
the Association of Public and Land-grant Universities, and the 
Council on Governmental Relations, applauds the Task Force's 
bipartisan efforts to address some of these duplicative and 
burdensome reporting regulations while expanding transparency 
through the Digital Accountability and Transparency Act. 
Importantly, the legislation mandates the establishment of 
governmentwide data standards and tasks the Office of 
Management and Budget with reviewing current reporting 
requirements and reducing duplication. We appreciate that 
universities are explicitly mentioned as a stakeholder for 
input in the OMB process. We also support and would be happy to 
participate in the pilot program to evaluate consolidated 
recipient reporting. We support this legislation and hope to be 
a resource as this moves forward.
    Thank you for the opportunity to provide testimony today, 
and I am happy to answer any questions.
    [The prepared statement of Mr. Kane follows:] 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Warner. Well, thank you all for your comments.
    We have been joined by Senator Whitehouse. We will do 5-
minute rounds here, and for the first round we can kind of turn 
this more informal.
    Mr. Czerwinski, the RAT Board you spoke about.
    Mr. Czerwinski. Yes.
    Chairman Warner. Why have they--has this been OMB's 
reluctance to grant them the authority? Has it been Congress' 
lack of willingness to grant them the authority to do the kind 
of centralized work and decisionmaking? Can you explain that a 
little bit more to us?
    Mr. Czerwinski. Are you talking about the GAT Board?
    Chairman Warner. Yes. I am sorry. The GAT Board.
    Mr. Czerwinski. I know we have the GAT Board, the RAT 
Board.
    Chairman Warner. Yes, I meant the GAT Board, not the RAT 
Board, yes.
    Mr. Czerwinski. In terms of the GAT Board, that is the way 
the Executive order was set up so that the Board has what we 
would call a loosely knit strategic direction, but it does not 
have a clear line of authority, and that is something that we 
feel very strongly about. And, frankly, even if it was set up 
that way in the Executive order, executive administrations can 
change, so we believe in the permanence of legislation.
    So the concept of clear lines of authority we think is 
essential to having good transparency as well as the permanence 
and structure of legislation.
    Chairman Warner. Well, again--and I know the DATA Act we 
have reworked a couple of times, and it does not answer 
everything, and candidly, I was originally hoping that we would 
move towards even greater requirement of moving towards a more 
single financial standard. I have been advised we need to take 
this step by step, but you would concur that the DATA Act would 
move us at least in the right direction here while we are not 
directly addressing some of the things on the GAT Board.
    Mr. Czerwinski. Oh, absolutely, Mr. Chairman. The DATA Act 
has the concepts that we believe are important that our work 
showed. So, for example, on standardization, that is exactly 
what it would do. This is something that does take some time, 
so a phase-in period may be useful, because we are talking 
about agencies reconfiguring their award systems so they would 
then be consistent with the payment systems. Agencies have to 
redo their financial systems anyways over time, so that a 
strategic vision of doing that would work, and that is very 
much consistent with legislation you are talking about.
    Chairman Warner. Mr. Lee, again, I think Senator Ayotte and 
I looked at each other kind of astounded when you mentioned the 
school lunch programs that do not indicate they are spending 
any money or the Medicare programs that do not look like they 
are spending any money. How does this pass the smell test? Why 
isn't this information more known that we have a system that is 
so kind of out of whack, you know, when you have got data like 
this that is on the face so obviously wrong? I know that sounds 
like a bit of a naive question, but--
    Mr. Lee. Not at all. I think part of the problem is that no 
one is doing any smelling, or historically has not been. 
Senator Ayotte referred to the Maritime Administration earlier. 
They are a favorite of mine. They for a period of time, when I 
was working on the SubsidyScope project, just did not report 
any spending at all. And, of course, when there are no records, 
it is difficult to identify a problem. We were able to find a 
point of comparison that exists elsewhere in the Government to 
identify mismatched spending, but this was quite limited. In 
fact, we were only able to look at grants and other types of 
assistance spending. There is no comparable point for contract 
spending. That is still something we are endeavoring to work 
on.
    In our experience talking to both of OMB and the agencies, 
we were impressed by the professionalism of everyone involved, 
and, you know, I used Medicare as an example. But, in fact, the 
people we spoke to at HHS were going to incredible lengths to 
make sure that their obligation data was correct and that it 
was uploaded to USASpending. It was only confusion about the 
disclosure burden that ultimately led to these data quality 
problems and the fact that nobody at OMB was mandating--or 
paying sufficient attention to these systems to ensure data 
quality.
    Chairman Warner. I want to get to Mr. Kane, but are there 
examples at State or local areas where they have got it right? 
Have you guys worked through and said here are some best 
practice examples at other levels of Government?
    Mr. Lee. There are a number of State checkbook sites that 
we have reviewed that showed real promise, although we have not 
conducted as comprehensive a data quality analysis. I will say 
that internationally there are a number of examples of 
governments that are getting this right. We recently published 
a case study regarding the Slovakian procurement tracking 
system. They do a wonderful job.
    So I think that there are exemplars that we can turn to as 
we try to implement these systems.
    Chairman Warner. Mr. Kane, I want to just get one quick 
question. Could you estimate with this multiple reporting 
requirements combined with this invoicing process, you know, 
have you been able to compute even in kind of a generalized 
range how much additional administrative cost burden and 
whether this is actually--do you have to pay for this--can you 
pay for this out of any of these Federal grants in kind of an 
overhead account? Or does it have to come out of a separate 
budget?
    Mr. Kane. So we have not calculated that. It is just that 
you can--by the workload that our department has and what we 
have got to do each month to get these things out, you can--it 
is a push for the staffing that we have had, which is not--
usually it comes from the State. So, you know, the university 
is a State-supported institution, so the grants themselves do 
not pay for this directly.
    Chairman Warner. Senator Ayotte.
    Senator Ayotte. Thank you. I want to thank the witnesses 
for being here. Let me just ask up front, how do we measure--is 
there anything that is out there right now where we are 
measuring performance? So we are talking about obviously data 
that connects the payment to recipient, and we are not there 
yet, as I hear the witnesses, of where we want to be, and 
particularly since $900 billion is not in USASpending.gov, that 
is a huge amount of money that is not being accounted for in 
terms of transparency. But I am also interested in hearing your 
thoughts on the next step. So we have this step to get right, 
but my sense is that there is very little within our Government 
that is ever required to measure whether the money that we are 
allocating toward particularly grant programs, you know, has 
any result.
    So I just wanted to get all of your thoughts on that piece 
of it as we start this discussion.
    Mr. Czerwinski. Well, I am happy to start off. I think that 
the answer to your question begins with what Mr. Chairman 
mentioned at the beginning, and that is, GPRA modernization. 
This is an act that would require agencies to essentially 
establish the types of performance goals that you are talking 
about, outcome-based. So typically what we find in agencies is 
that they are very good at outputs, you know, so many units of 
this done, so many of that done, but not to what end. So it is 
to establish, one, those type of outcome goals; two, to set 
those goals at an agency level, program level, and roll them up 
so that you can then prioritize; and, three, to populate them 
with data that shows what your outcomes were achieved, but also 
linked to what was spent. So we are talking about essentially a 
system that runs multiple steps.
    Senator Ayotte. So how far are we away from outcomes on 
that?
    Mr. Czerwinski. We have some in some places, some agencies 
are further along than others, but we have a start in that 
direction. There is a long ways to go, but you still want them 
populated with what you are expending, too. So there are a lot 
of pieces still. I would say it is early. That would be my--
    Mr. Lee. To add to that, I would say that these systems do 
include some attempts to measure performance and efficiency. 
For instance, in USASpending, there is the concept of the 
subsidy rate associated with loan records, which is supposed to 
capture an estimate of how many of the loans in that portfolio 
default. Under the Recovery Act, recipients were also required 
to report the number of jobs created for each associated grant.
    The problem with all of us is that the guidance and actual 
implementation has been inconsistent. So having different 
recipients try to figure out the formula for calculating number 
of jobs created leads to a tremendous amount of errors. This 
occurs around that loan subsidy rate figure at the agency level 
as well.
    These measures may or may not prove to be useful, but 
centralizing authority over them so that they can be 
implemented in a consistent way that allows comparison across 
programs is a necessary first step.
    Senator Ayotte. Mr. Kane, I do not know if you had any 
thoughts on that.
    Mr. Kane. So to latch on to the Recovery Act, when we were 
counting jobs created, I sat in a meeting at the beginning of 
that with three different Federal agencies, and none of them 
could agree on how we were to count how many jobs--
    Senator Ayotte. Well, there was so much inaccuracies with 
that. I mean, you had--I mean, you basically had people who had 
existing jobs and whether when the had some piece of Recovery 
funding, that--I mean, there was obviously--I think that was 
very hard to measure in all of that.
    So, Mr. Lee, you know, the work that you have kind of 
dedicated your life to in the Sunshine Foundation, if you were 
in our position, so if you were elected to the United States 
Senate and were carrying on your work but as a policymaker now, 
what would be the number one priority for you to get done 
legislatively? If you were in charge, what would you do?
    Mr. Lee. I think the most important thing that could be 
done around spending data systems is to make the systems that 
are used for public disclosure to inform Americans the same as 
the ones that agencies use to track their own spending and 
report within Government. Right now that is not the case at 
all, and it makes the public disclosure systems an 
afterthought, by and large.
    Ultimately, we would like to see a unified stream of 
reporting that lets dollars be tracked from the budget to 
obligation to disbursement. I think that last linkage is likely 
to happen thanks to the DATA Act and the centralization of 
authority within Treasury. But there are going to be continued 
challenges as we try to create a really unified picture of 
Federal spending.
    Senator Ayotte. And in your testimony, your written 
testimony, Mr. Czerwinski, you talked about--you mentioned 
predictive analytic technologies that can identify fraud and 
errors before payments are made--
    Mr. Czerwinski. Yes.
    Senator Ayotte. --and data-mining and data-matching 
techniques that can identify fraud or improper payments that 
have already been awarded.
    Mr. Czerwinski. Yes.
    Senator Ayotte. I was fascinated by that. Can you provide 
us with an example of how that technology has been used and a 
success story? And are these technologies available to agencies 
as a whole? And, you know, just where are we on this?
    Mr. Czerwinski. That is a wonderful question, and the 
answer to that begins with a capacity that the RAT Board has in 
something they call the ROC. It is the Recovery Operations 
Center. And what they did is with Recovery.gov data, because 
those data were complete and accurate and consistent, they were 
able--the spending of that, they were able to look and look for 
patterns and actually identify issues with maybe crossing 
agencies, crossing programs, where certain maybe people were on 
debarment lists or people were getting multiple awards and 
could actually find these early on.
    Now, the question that you make about whether this can be 
replicated, that is the next step, because what you have is 
this capacity that has been built up centrally, the idea then 
is to share it--to share it with other Federal entities, to 
share it with State and local, because you can have economies 
of scale of taking this protocol, this information that is out 
there, and sharing them and how to do it. And that is the next 
step that needs to be done.
    Senator Ayotte. Thank you all.
    Chairman Warner. Before we go to Senator Whitehouse, I do 
think GPRA at least started to look about how do we evaluate 
performance, but it was still pretty much within agencies. So 
within DOE there would be this. But when you look at something 
like workforce training, which crosses all these different 
agencies--
    Senator Ayotte. This whole issue of the duplication, how do 
we get--
    Chairman Warner. The duplication. We are not getting to 
that. Part of it is because, I think--and I do not want to 
pretend that DATA Act is some panacea. But if you do not at 
least have common financial standards and common definitions of 
what may be a grant versus an expenditure, you know, it really 
makes you wacky.
    Senator Ayotte. Right.
    Chairman Warner. That is a technical political term.
    Senator Ayotte. I think you are right, and I think, 
obviously, the other challenge we have too is that, as you 
know, when a particular district receives a certain grant and 
then--but regardless of the fact that there are ten other 
grants doing the same thing, we also have to look at it--and I 
know that you have been focusing on that, and Congress has. It 
is not just about, you know, bringing home the bacon in my 
particular district. It is about, Does this help the country as 
a whole and, therefore, my State? So I think that is one of the 
challenges we face around here.
    Chairman Warner. Let me also turn to my friend and 
colleague Senator Whitehouse. It was actually his idea 
originally to create this working group. He was the originator 
of this, and he cares deeply about it, and particularly he has 
been absolutely a leader in the Congress on how we drive some 
of this better data around health care. So thank you again for 
joining us here, Senator Whitehouse.
    Senator Whitehouse. Well, thank you, Chairman Warner, and I 
want to thank our active and interested Ranking Member, Senator 
Ayotte, as well. Credit really goes to former Chairman Conrad 
for doing this. I did urge him to, but it is the Chairman's 
call to do this, and it was Kent Conrad who made that call. And 
we all agreed that Senator Warner, who had been the Governor of 
Virginia when it was the best managed State in the Union, a 
subject that--there we go.
    Chairman Warner. Can you repeat that for the record, 
please?
    [Laughter.]
    Senator Whitehouse. That Senator Warner would dedicate his 
considerable energies effectively to this Committee, and he 
has, and I want to applaud both him and Senator Ayotte for the 
way in which they have led it.
    I agree that this question of having a data foundation for 
policy and for watching spending is vital. It is my 
understanding that USASpending was actually designed to capture 
a specific kind of spending, which was contract spending over 
$25,000. So if that is the case, I am not sure it is completely 
fair to fault that program for not taking into account things 
that it was not told to take into account, i.e., spending that 
is not contract spending over $25,000.
    But I take your point that because of that limitation that 
was put on it, it does not provide the complete picture that 
others are looking for, and I look forward to being able to 
work with you to expand that.
    It appears from your testimony that we seem to be agreed 
that the Recovery Act data and transparency standards were 
better than average and are something that would be wisely 
extended, continued, applied in other areas. And I would like 
to ask those of you comment in your testimony, particularly Mr. 
Czerwinski and Mr. Lee, just to be a little bit clearer. I 
mean, do you think that those standards are like best in show 
or just better than average? Are they a good starting point 
that we should expand to the rest of Government? Or are they 
kind of a launching point from which we should do further 
improvements before expanding it? Which way would you have us 
go: expand first and then improve, or improve first and then 
expand?
    Mr. Czerwinski. I think the Recovery Act set out some very 
good ideas, and you have to think about the time frame and time 
that it was done. It had to be done very quickly. So it did 
require a burden on the recipients, and that is something you 
would probably want to improve upon going forward.
    Senator Whitehouse. Reducing that burden.
    Mr. Czerwinski. Yes, exactly. Exactly.
    Now, that is a type of platform called recipient reporting. 
The Recovery Act did not build on the existing data systems 
that we have primarily on the payment side because it is too 
difficult and too long under that compressed recovery period to 
get consistency, i.e., data standardization. So that is the 
area that you would want to use to focus in on your 
improvement.
    Senator Whitehouse. Okay.
    Mr. Czerwinski. Now, what Recovery also has, though, that 
you want to just replicate is the concept of stakeholder 
involvement and clear lines of authority. In this case, the 
Recovery and Accountability Transparency Board and OMB by 
legislation had control over what was done, and that is 
something that is missing now for going forward.
    Also, in terms of--
    Senator Whitehouse. My time is running out, and I want to 
have Mr. Lee have a turn.
    Mr. Czerwinski. Okay.
    Senator Whitehouse. So if you could sum up your answer.
    Mr. Czerwinski. Okay, okay. And then stakeholder 
involvement is very good. The Recovery Board also have very 
good staff, and you would hate to lose that resource.
    Senator Whitehouse. Got you. Mr. Lee?
    Mr. Lee. First, to clarify, USASpending is intended to 
cover direct assistance as well as contracts. The unified two 
data sets created in the late 1970s, early 1980s, called FAADS 
and FPDS-NG, and expanded FAADS to some extent. So that 
information is supposed to be in there, and in some years it 
is, at least as block grants to States.
    As far as the question of expanding the disclosure mandate 
versus improving the quality of the data, I think the mandate 
is fairly broad already. The real problem is implementation, 
both from agencies not reporting and from difficulties related 
to sub-recipient reporting not coming in completely.
    As we have discussed, the Recovery Act's mandated fields, 
like jobs created, I think is open to review. One of the nice 
things about the way the DATA Act is currently structured is 
that it allows flexibility in terms of some of the technical 
standards going forward, and I think it might be worth looking 
at the question of what disclosures and what fields are 
specifically mandated in law versus the ones that those 
administering data would have the flexibility to alter, if 
necessary, in order to harmonize data sets.
    Senator Whitehouse. Okay. Let me close by telling Mr. Kane 
that I have run administrative agencies, I have litigated 
administrative agencies, I have overseen administrative 
agencies, I have worked legislation for administrative 
agencies, and one of the things that I have learned over those 
years is that if you are a legislator and you lose the 
substantive fight that you would like to win, very often your 
consolation prize is a reporting requirement; and that those 
reporting requirements take on a life of their own, and they 
can live on beyond the fight from which they were the 
consolation prize. They can live on beyond the career of the 
legislator who stuffed them into some bill. They can live on 
virtually eternally. And I think you have got a WAHU majority 
present on this Committee right now, and you are an honorary 
one, right, from having been Governor of Virginia? You were 
chairman of the board, right? There you go.
    Chairman Warner. Yes.
    Senator Whitehouse. Appointed the chairman. So we would be 
very interested in hearing from you some specifics about the--
at least I would. I sit on the HELP Committee, and we are going 
to be looking at a higher education bill, and I would love to 
be able to work with my colleagues on that Committee to try to 
reduce some of the dead hands reaching from the past that were 
based in a political defeat for somebody but now still require 
some poor person to have to sit down and scribble out report 
after report after report that in some cases, I believe, nobody 
actually reads.
    Mr. Kane. I am sure there is plenty of that. I am not 
prepared to say specifics about it, but as this Committee does 
its fact finding, I invite any of your staff to come down to my 
office and sit with our folks as they go through, and we will 
show them examples. They can actually see the mechanics of what 
reports go to what agencies, why this is done this way, why 
this one is done that way. And I think it would give you a real 
good insight into how things are actually working. So that 
invitation is open for your folks.
    Senator Whitehouse. But usually I think we have got it 
completely backwards. The group whose convenience is maximized 
is the group that requires the report, and the group whose 
convenience is less important is the group that has to fill out 
the report, and the group that is barely considered at all is 
the public, which is supposed to get the advantage of reading a 
useful piece of information when it is all done. And we need to 
turn that upside down so that it is most convenient for the 
public to get this information, it is more convenient for the 
institutions to provide it. And if that means it is even more 
inconvenient for the Government to organize it in such a way 
that the institutions and the public have more convenience, we 
should be willing to bite that bullet, because ultimately that 
is where the rubber meets the road. It is the interface with 
the public.
    Mr. Kane. Correct. I agree with that.
    Senator Whitehouse. I have gone on too long, but I 
appreciate the Chairman's indulgence.
    Chairman Warner. No, no. I appreciate you coming here, and 
I could not agree more.
    I do want to give one good piece of information. I 
apologize about stepping out, but from a Virginia-based 
facility, Wallops Island, we just launched the largest rocket 
we ever had in the entire east from Orbital Sciences, so--
    Senator Whitehouse. Not on Syria.
    Chairman Warner. Not on Syria.
    [Laughter.]
    Chairman Warner. For scientific purposes only.
    Let me follow up with where I think all three of us are 
going but where Senator Whitehouse I think drilled down. Mr. 
Czerwinski, you have at GAO pointed out the duplication on the 
programs and also on some of the reporting, and I really 
applaud that work, and we actually have been talking to some of 
my colleagues about how we could actually eliminate some of 
this reporting duplication.
    I guess, Mr. Lee, one of the things I would like to hear 
from you as kind of the largest advocates and the brand name 
around sunlight and transparency, how we can get at this issue. 
I think Senator Whitehouse and Senator Ayotte and I both have 
raised what seems to be an implicit contradiction that by 
actually cutting back on the reporting, we might actually be 
able to be more transparent. And can you help us on that? Can 
you help us articulate how that is? Because, again, as a 
relative short-timer here, I agree with Senator Whitehouse. You 
know, people want to make a legislative change, and they are 
not successful getting a legislative change, so the booby prize 
becomes you get a study with an ongoing reporting requirement 
that may or may not ever be revisited. But, you know, how do we 
get at this issue?
    Mr. Lee. I think the perspective we bring is that we are 
aware that there are a number of competing priorities within 
agencies, committees, everywhere, and a limited amount of 
attention, patience, resources will be brought to questions of 
transparency. We want to make sure that they are spent as 
effectively as possible.
    So, for instance, when FFATA mandated the expansion of the 
FAADS system into FAADS Plus and added a few new fields, it did 
not actually get rid of FAADS. Instead, this subset of the data 
continued to be reported to Census and maintained, released 
quarterly instead of on the more frequently updated basis that 
FAADS Plus was through USASpending. Really all that was 
required was some central authority that could pare away this 
duplicative system and put those resources toward better ends.
    So while I think there is obviously a tension between 
reporting burdens and the needs of the public and oversight 
bodies for transparency, there are some obvious wins here that 
can be eliminated.
    Chairman Warner. We would just--at least this Senator 
would--really invite your cooperation and collaboration on 
this, because I think that--and I again want to compliment the 
GAO. When you have got so much data and it is so 
incomprehensible and there are not these common standards, you 
know, I am not sure we are getting to that goal of greater 
transparency for the taxpayer or for us as policymakers.
    I want to ask you all one other question and cede more time 
to Senator Ayotte, and then we can go back and forth.
    One of the questions we had in an earlier version of the 
DATA Act, there was this idea of, you know, let us take the 
goal to try to get common financial standards and create a 
large new entity, and we have come to the conclusion that 
perhaps the better way is to actually reinforce and beef up the 
activities that are being done at Treasury and trying to have 
them be the repository for creating these common financial 
standards.
    I would just like to get--and, Mr. Kane, this may be 
outside your purview, but for Mr. Czerwinski and Mr. Lee, is 
that the right approach? Are we taking the right approach in 
DATA and working this through Treasury rather than creating 
some new enterprise?
    Mr. Czerwinski. I am willing to start, Mr. Chairman. I 
think the key is what capacity you bring and what 
responsibilities go with it. So, for example, let us pick the 
Recovery Board right now. They have very strong resources that 
have already been built up and have been practiced. So that is 
something you want to maintain in whatever institutional 
structure you have, you want to get those resources someplace.
    The point that we make about responsibilities, wherever you 
place something, it is very important to set certain standards 
that have to be met, for example, involving stakeholders. So 
whether it is in Treasury or someplace else, you want to have 
it so that it addresses the needs of the people who are 
receiving the funds, not just the needs of the system.
    So we are agnostic about institutions, but we are very 
strong about the principles that you want to build into 
whatever institution--
    Chairman Warner. Can you let me just follow up very briefly 
here.
    Mr. Czerwinski. Sure.
    Chairman Warner. You know, I got harangued by staff that 
the idea that we are going to get to a common Federal financial 
standard would be a bridge too far, we need to start with just 
pilots. But what kind of timeline should we--you know, you see 
the rest of the world being transformed, and new technology-
driven financial data systems that businesses and consumers use 
in a fairly easy fashion. Should we accept or be willing to 
accept what seems to be such a long transition period for the 
Federal Government to kind of get its act together on this 
stuff?
    Mr. Czerwinski. Yes, I think you have nice comparison 
between contracts and grants. In terms of contracts, what you 
have is a requirement by 2014 that you will have uniform 
identifiers that are consistent across all agencies, so there 
you have a time frame already in place for half of that 
trillion dollars that you are talking about.
    Now, what that is based on is a platform of capacity. In 
terms of contracts you have, the Federal Acquisition 
Regulations, which standardize things. You do not have quite 
that in place with grants, so grants will be a little bit more 
difficult. But just to leave things open-ended, that is a 
problem that we have when that is done.
    We believe that there should be--and this is one of our 
recommendations--time frames, there should be deliverables, and 
that they should be held accountable for that. So we are right 
on line with what you are talking about, that it will take some 
time, but the only way we will shorten the time is by setting 
time frames.
    Chairman Warner. Thank you. Senator Ayotte? And I am very 
glad to be joined by Senator Portman, who is, as I mentioned, 
the lead cosponsor on the DATA Act as well, and I am really 
appreciative of his strong work in this field.
    Senator Ayotte. I just have a couple of brief follow-ups, 
and then I know that my colleague Senator Portman is here.
    One of the things, as I heard Senator Whitehouse relay his 
experience of having worked with administrative agencies, I 
have seen that myself, and I often think that when we--
obviously, the structure of how we do this reporting and what 
we are trying to accomplish on the uniform reporting I think 
needs to remain stable. But when we are talking about specific 
reporting requirements that are not inherent of all the basic 
financial data, should we be looking at, you know, sunsetting 
some of these things? And, also, I am a fan of sunsetting 
programs as well, because it seems to me that in the absence of 
some forcing mechanism within this body to review the 
effectiveness of something, it just continues to live on. And 
so when we talk about deadlines and accountability, I think 
that we here do not enough put limits on what we are enacting. 
And I just wanted to get your thoughts on that, you know, 
what-- certainly some things we would not--you know, if you 
have got a basic structure, you are not going to revisit the 
basic structure necessarily without--but a lot of things it 
just seems they go on and on with no end date of things we ask 
you to do.
    Mr. Lee. I certainly think that the fields and specific 
requirements for disclosure are worth review. I would be 
hesitant to suggest sunsetting disclosure requirements simply 
because those disclosures have not been made. Noncompliance 
strikes me as something that needs to be addressed first 
through more serious sanctions and consequences for programs 
that have an obligation to report prior to ending those 
programs, although, of course, review at any time may be 
appropriate.
    Mr. Czerwinski. I will give you a shot at it. I think the 
concept of sometimes things have seen their life and they need 
to be terminated is exactly correct--
    Senator Ayotte. Well, like thinking about all the multiple 
duplicative programs, it is like they keep living, nobody 
reviews them, nobody has any accountability on it. Even if we 
have all the data, if somebody does not act on it, then we are 
going to continue going where we are.
    Mr. Czerwinski. Yes, and staying just within the concept of 
transparency, I think that concept applies there too. What I 
would throw out are a couple principles. One is--and this is 
something that Tom got at in his statement, and that is, there 
are certain pieces of information that are required to be 
reported that the agencies do not need, and, therefore, they 
are not ensuring their accuracy. It is the same as what Gerry 
was talking about, some things that he has to report that do 
not help him managing, and, therefore, it is an extra burden, 
and maybe we are not consistent.
    So I think what you can do is you can say where are the 
requirements and overlay that do not improve the awarding of a 
contract or grant, the management of a contract or grant, or 
how the recipient handles a contract or grant. And that can 
then lead to the--it is not just additional work, but it also 
leads to greater inaccuracy and greater inconsistency. So it is 
a lose-lose-lose if you do not do the discipline that you just 
talked about.
    Senator Ayotte. I thank you all for being here. I 
appreciate this important topic. Thank you.
    Chairman Warner. Just before I turn to Senator Portman, I 
want to just mention I had a--the first 6 months of being a 
Senator here on this Committee, this idea of could you actually 
eliminate some programs, I thought that I could take the 
lowest-hanging fruit, which OMB comes up with a program 
elimination list, and so I said, well, why don't we take the 
ones that--
    Senator Ayotte. Well, and also they recommend that to the 
President.
    Chairman Warner. Right.
    Senator Ayotte. Don't they? And then the President 
accepts--
    Chairman Warner. You will like this part. I said, well, why 
don't we take the ones that both the Bush administration and 
the Obama administration had agreed upon.
    Senator Ayotte. Right.
    Chairman Warner. Sixteen programs, in total $1 billion, 
many of them quite small. It was a great--it was like, I guess, 
Congress 101 for me, because you would think that I was, you 
know, calling for the destruction of the whole Federal 
Government. And these were programs that both Obama and Bush 
had agreed upon. So we have got our work cut out for us.
    Senator Ayotte. If you want someone to take this fight on 
with you again, count me in. Thank you.
    [Laughter.]
    Chairman Warner. Somebody who has been working on this 
issue long before both of us and has got great bona fides here, 
and, again, I want to thank him for his cosponsorship of DATA 
since he has seen this both from the administrative side and 
the legislative side. Senator Portman?
    Senator Portman. Thank you. Mr. Chairman, thanks for your 
courage in taking on this issue as a Democrat. And to my 
colleague from New Hampshire, it is great that you are the 
Ranking Member in this effort, and just listening to your 
questions there and your commitment to this, I am glad we have 
this forum and this opportunity to promote it.
    Look, I wish I had been here for the whole meeting. We were 
at the Finance Committee, and I have got to go to the floor for 
something else. But I just want to thank you all for what you 
are doing to promote transparency and sunlight being the best 
disinfectant and simplicity so that, you know, not only can you 
and your organizations understand better how every dollar is 
spent, but we can let our constituents know.
    My background on this is that when I was at OMB, the 
Coburn-Obama legislation was introduced. I supported it and 
implemented it initially. Actually, we went out and used a 
private sector website because we did not have the ability to 
move as quickly as we wanted to using Government technology. So 
we actually purchased that original website platform from an 
outside Government watchdog group in 2007, USASpending.gov.
    Anyway, enormous challenges, as Chairman Warner has talked 
about, in trying to get at this issue, but I think we made 
progress across the board. Data uniformity is something I am 
very interested in, and I guess you talked about that today. 
Certainly the burdens, the reporting burdens and compliance 
costs, we have got to be cognizant of that.
    This DATA Act that Senator Warner has introduced and I am 
the cosponsor of we think is helpful because we think it does 
create more transparency by setting these governmentwide 
financial standards and data standards, streamlining some of 
the reporting requirements, improving the quality, therefore, 
of the data that we are getting, and using that improved data 
more effectively.
    Here on the Budget Committee, we often find ourselves in a 
situation where we are asking agency heads about their data--
the Department of Defense comes to mind--and we cannot get the 
information--we are really not doing effective oversight. Not 
that it should be all about us, but it would help if the 
people's representatives had the ability to get this data as 
well.
    So maybe, Mr. Czerwinski, I would just ask you quickly, do 
you think establishing a more accurate system that tracks all 
Federal spending is important to the work you are doing? And 
both the recent GAO report and your testimony today emphasized 
that while OMB and the GAT Board have begun these 
standardization initiatives linking systems, better utilizing 
information, that the current mandates come primarily from the 
Executive order in June 2011, which does not provide authority 
to implement some of these much needed reforms. So what do you 
think about the DATA Act? Does that help you to be able to do 
your job?
    Mr. Czerwinski. Yes, Mr. Portman. What we agree with, one 
is the need for legislation because you want to 
institutionalize this; two, the kind of concepts that are in 
the DATA Act we support completely, the need for 
standardization to have uniform reporting, involving recipients 
in what is being done. So we are completely in alignment with 
the goals of the DATA Act.
    As far as information for oversight and allowing us to do 
our job, for one we very much believe in congressional 
oversight, so we come into it with that perspective. But I will 
give you an example. We were asked by the House
    Committee on Appropriations as well as the Black Caucus to 
determine where funding was going to disadvantage rural and 
urban areas for community economic development. The data just 
were not there to do that. And how can decisionmakers make 
decisions when the data are not there? And how can we do our 
job supplying you with the information you need when the data 
are not there either? So, yes, there are tangible real costs of 
not doing this.
    Senator Portman. That is a great point, and we are entering 
into an era here where we are going to be having tighter 
budgets, regardless of what happens with the CR and the debt 
limit, feeling more and more pressure, and, you know, some of 
us hope sequester can be released so we will have more 
flexibility. But this need for data, as you say, is going to be 
greater and greater across the spectrum, the political 
spectrum, in terms of how do you more efficiently target that 
Federal dollar to programs that work. That is a good point. So 
it seems to me the act is coming at a time when there is a 
particular need on having this information readily available.
    To Mr. Lee, you have been an advocate for great 
transparency across Government, including getting some of this 
financial data to the public, and I guess I would ask you how 
expansion of financial data could be used by organizations like 
Sunlight or other researchers in academia. How could better 
data, more complete data be analyzed from outside groups to 
help make Government more accountable to the citizens we 
represent?
    Mr. Lee. Well, I think we cannot overemphasize how central 
this stream of data is for reporting on the activities of the 
Government. It previously powered the consolidated Federal 
Funds Report when it existed, and if you open any GAO report on 
program effectiveness, you are likely to see caveats about the 
data quality problems inherent in these data sets.
    It is a persistent problem for people both within and 
outside of Government, so I would say that improving the 
quality is absolutely essential for anyone who is trying to 
oversee the use of these funds, the effectiveness of these 
funds, and the general structure of it who does not have access 
to the internal systems at Treasury or agencies that cannot be 
open to the public in general.
    Senator Portman. Listen, I am over time. Thank you. And, 
Mr. Kane, thanks for your work at UVA. I know you had an 
opportunity to talk about that earlier, and we can learn from 
your examples in the--it is a Commonwealth, right?
    Chairman Warner. It is the Commonwealth.
    Senator Portman. Yes, as the Governor will remind me. The 
Commonwealth of Virginia. Thank you all very much. I appreciate 
it.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator Portman.
    I just have one last question. One of the things--and this 
goes back to Mr. Kane's earlier comments, and I would like to 
get your response as well, of this duplicative reporting and 
reporting versus invoicing versus lost reports. As the 
administration and all governmental entities move to more of a 
cloud-based computing function, shouldn't conceptually the 
ability to be--if you filed that report, then once--it should 
be in the cloud and it should not be then--it should be more 
then the Government's responsibility to find it rather than you 
having to go back and refiling a second, third, or fourth time 
and trying to get that architecture right? We will start with 
Mr. Kane and go down the list really quickly. Then we will 
close up this hearing.
    Mr. Kane. Yes, that would make life very easy for 
everybody, the information was filed once, that it was there, 
and that it is not duplicated in multiple reports. But my own 
personal experiences with this, it also creates a cash flow 
problem for the university because we are not getting paid for 
some of this stuff because they are looking for paper. Some of 
this stuff is done electronically. You talk about the cloud, 
but there is still a lot of paper-based systems out there, and 
I think that is a lot of where the problems are.
    Chairman Warner. Mr. Lee, obviously there are privacy 
issues involved here, too, but have you all thought through 
this notion of how we can use the cloud to both better share 
information, avoid some of this duplication, commonize the 
standards?
    Mr. Lee. Absolutely. I think it is important to stress that 
centralization of data collection efforts is not only going to 
reduce the reporting burden, but will actually improve data 
quality. When Sunlight, for instance, investigates lobbying 
reports, we see that General Motors and GM show up as different 
entities. Unifying those systems in a simple auto-complete form 
is very basic Web design stuff can make sure that that is the 
same record in the database.
    I should also stress, though, that in addition to the need 
for centralization of authority over these processes that the 
DATA Act moves toward, it will be important to look at other 
measures that are currently in effect, like the Paperwork 
Reduction Act that make it difficult to modernize disclosure 
systems.
    Chairman Warner. Yes, I would love to get--I know enough 
about the Paperwork Reduction Act to be dangerous, but not 
enough to know it substantively. So I would love to get you to 
share with our staff some of your concepts and ideas on that.
    Mr. Czerwinski, you get the last word.
    Mr. Czerwinski. I agree completely with the points that 
Gerry and Tom just made, and to me, what this comes down to is 
the concept of pre-population, and it has the benefits I talked 
about: efficiency, accuracy, completeness.
    What it also does, it goes back to the very point that we 
talked about at the start, and that is data standardization, 
which is exactly what you have in the DATA Act. So the platform 
is almost irrelevant, whether it is the cloud or whatever. It 
is the concept, and the concept gets you to where you are. So, 
yes, that is a legitimate way to go, and, again, it is further 
reason why there should be legislation such as this.
    Chairman Warner. And I guess I will close out with--I was, 
when you looked for best practices, intrigued that you picked 
Slovakia as the place, but I do recall back when I wore a 
business hat that this is not a unique problem to the Federal 
government enterprise. Large, large corporates, many of them in 
the technology space, complaining about lots of systems that 
worked that did not work that well together. You know, do you 
think we are doing enough? And even if we pass the DATA Act, 
which I hope we will, you know, how do we make sure that we get 
enough kind of not just recipients like the University of 
Virginia, but how do we make sure we get the advice from best 
practices, whether they are other governmental entities or 
private sector entities that can have input into the system? 
Any suggestion on that?
    Mr. Lee. I would say the DATA Act has some provisions for 
the use of current technologies, and as I mentioned, it allows 
for flexibility in, for instance, the data formats that are 
employed. Future proofing, as we say, when we are engineering 
is an important part of this, and the use of open, non-
proprietary formats is an essential ingredient.
    Beyond that, I would say that there is, to some extent in 
my experience, a backlog of expertise within Government that 
knows how to improve these systems, but is stymied in one way 
or another. I think centralization under DATA and the removal 
of other barriers to doing a better job could let us tap that 
expertise.
    Chairman Warner. Anyone else?
    [No response.]
    Chairman Warner. Well, again, I want to thank all three of 
you for very good testimony and for I think a subject that 
merits a lot more attention, and my sincere hope is that when 
we see the kind of broad-based bipartisan support in the House 
on data, we can duplicate that here in the Senate and that we 
can get this tool in place that will help you, but, more 
importantly, help the public at large and us as policymakers 
make the right decisions.
    With that, again, my thanks, and the hearing is adjourned.
    [Whereupon, at 11:27 a.m., the Committee was adjourned.]

                                 <all>

</pre></body></html>
